1a

10 U.S.C. § 825
Art. 25. Who may serve on courts-martial

(a)
Any commissioned officer on active duty is
eligible to serve on all courts-martial for the trial of
any person who may lawfully be brought before such
courts for trial.
(b) Any warrant officer on active duty is eligible to
serve on general and special courts-martial for the trial
of any person, other than a commissioned officer, who
may lawfully be brought before such courts for trial.
(c)(1) Any enlisted member on active duty is eligible
to serve on a general or special court-martial for the
trial of any other enlisted member.
(2) Before a court-martial with a military judge and
members is assembled for trial, an enlisted member
who is an accused may personally request, orally on
the record or in writing, that—
(A) the membership of the court-martial be
comprised entirely of officers; or
(B) enlisted members comprise at least one-third
of the membership of the court-martial,
regardless of whether enlisted members have
been detailed to the court-martial.
(3) Except as provided in paragraph (4), after such a
request, the accused may not be tried by a general or
special court-martial if the membership of the courtmartial is inconsistent with the request.

2a

(4) If, because of physical conditions or military
exigencies, a sufficient number of eligible officers or
enlisted members, as the case may be, is not available
to carry out paragraph (2), the trial may nevertheless
be held. In that event, the convening authority shall
make a detailed written statement of the reasons for
nonavailability. The statement shall be appended to
the record.
(d)(1) Except as provided in paragraph (2) for capital
offenses, the accused in a court-martial with a military
judge and members may, after the findings are
announced and before any matter is presented in the
sentencing phase, request, orally on the record or in
writing, sentencing by members.
(2) In a capital case, the accused shall be sentenced
by the members for all offenses for which the courtmartial may sentence the accused to death in
accordance with section 853(c) of this title (article
53(c)).
(3) In a capital case, if the accused is convicted of a
non-capital offense, the accused shall be sentenced for
such non-capital offense in accordance with section
853(b) of this title (article 53(b)), regardless of
whether the accused is convicted of an offense for
which the court-martial may sentence the accused to
death.
(e)(1) When it can be avoided, no member of an
armed force may be tried by a court-martial any
member of which is junior to him in rank or grade.

3a

(2) When convening a court-martial, the convening
authority shall detail as members thereof such
members of the armed forces as, in his opinion, are
best qualified for the duty by reason of age, education,
training, experience, length of service, and judicial
temperament. No member of an armed force is eligible
to serve as a member of a general or special courtmartial when he is the accuser or a witness for the
prosecution or has acted as preliminary hearing officer
or as counsel in the same case.
(3) The convening authority shall detail not less
than the number of members necessary to impanel the
court-martial under section 829 of this title (article
29).
(f) Before a court-martial is assembled for the trial of
a case, the convening authority may excuse a member
of the court from participating in the case. Under such
regulations as the Secretary concerned may prescribe,
the convening authority may delegate his authority
under this subsection to his staff judge advocate or
legal officer or to any other principal assistant.

4a

UNITED STATES,
Appellee
v.
Pedro M. BESS, Hospital Corpsman Second
Class Petty Officer, United States Navy,
Appellant
United States Court of Appeals for the Armed Forces
October 23, 2019, Argued;
May 14, 2020, Decided
No. 19-0086
Prior History: Crim. App. No. 201300311. Military
Judge: Heather D. Partridge. United States v. Bess,
2018 CCA LEXIS 476 (N-M. Ct. Crim. App. Apr. 27,
2017).
For Appellant: Lieutenant Clifton E. Morgan III,
JAGC, USN (argued); Lieutenant Commander
William L. Geraty, JAGC, USN, and Lieutenant
Commander Jacob E. Meusch, JAGC, USN (on brief).
For Appellee: Lieutenant Kurt W. Siegal, JAGC,
USN (argued); Colonel Mark K. Jamison, USMC,
Captain Brian L. Farrell, USMC, and Brian K. Keller,
Esq. (on brief); Lieutenant Joshua C. Fiveson, JAGC,
USN.
Amicus Curiae for Appellant: Daniel S. Harawa,
Esq., Sherrilyn A. Ifill, Esq., Kerrel Murray, Esq.,
Janai S. Nelson, Esq., and Samuel Spital, Esq., for the
NAACP Legal Defense and Educational Fund, Inc. (on
brief).

5a

Judges: Judge RYAN delivered the opinion of the
Court, in which Chief Judge STUCKY joined, and
Judge MAGGS joined, except as to Part II.B.1. Judge
MAGGS filed a separate opinion, concurring in part
and concurring in the judgment. Judge OHLSON filed
a dissenting opinion, in which Judge SPARKS joined.
Judge SPARKS filed a dissenting opinion, in which
Judge OHLSON joined.
Judge RYAN delivered the opinion of the Court.
Appellant’s original conviction was set aside for
legal error, and a rehearing was authorized. United
States v. Bess, 75 M.J. 70, 77 (C.A.A.F. 2016). The
convening authority then referred charges to a new
general court-martial. A panel of three officer and two
enlisted members, convicted Appellant, an X-ray
technician, contrary to his pleas, of two specifications
of indecent conduct in violation of Article 120,
Uniform Code of Military Justice (UCMJ), 10 U.S.C. §
920 (2012),1 for his wrongful requirement that two
women undress during their respective X-ray
examinations. The court-martial sentenced Appellant
to be reduced to the grade of E-3, to be confined for one
year, and to be reprimanded. The convening authority
approved the adjudged sentence, and the United
States Navy-Marine Corps Court of Criminal Appeals
(NMCCA) affirmed the findings and sentence. United
States v. Bess, No. NMCCA 201300311, 2018 CCA
LEXIS 476, *33, 2018 WL 4784569, *12 (N-M. Ct.
Crim. App. Oct. 4, 2018).
The members acquitted Appellant of one specification of
indecent conduct and one specification of attempted indecent
conduct.
1

6a

On
appeal,
Appellant
alleges
racial
discrimination and unlawful influence in the
convening authority’s selection of members. We
granted review to consider three issues:
Whether
the
convening
authority’s selection of members violated
the equal protection requirements of the
Fifth Amendment.
I.

Whether
the
authority’s
selection
of
constituted
unlawful
influence.
II.

convening
members
command

Whether the lower court erred in
affirming the military judge’s denial of
Appellant’s motion to produce evidence
of the racial makeup of potential
members.
III.

We answer all three questions in the negative. While
racial discrimination is clearly unconstitutional,
absent intentional racial discrimination or an
improper motive or criteria in the selection of
members, the mere fact a court-martial panel fails to
include minority representation violates neither the
Fifth Amendment nor Article 37, UCMJ, 10 U.S.C. §
837 (2012)’s prohibition against unlawful command
influence. Additionally, Appellant’s oral discovery
request sought irrelevant information, thus the
military judge did not abuse her discretion by denying
it.

7a

I. Background
In November 2016, immediately prior to
individual voir dire, while the members were not
present, Appellant’s individual military counsel
stated to the military judge: “The defense has noticed
that the panel is all white. . . . [O]ur client is AfricanAmerican, and there’s no African-American
representation on the panel.” Upon further
discussion, counsel refined his observation, stating: “I
may have misspoke and said that [the members] were
all Caucasian, and that might not be true. I am fairly
confident that there is no African-American on the
panel . . . .” The military judge responded:
I can’t speak to the racial makeup of
our panel. I agree with you that I don’t
see anyone who I think is obviously of
the same race as your client, but then
again, I would not have known,
frankly, that he is of the race he is,
absent reviewing materials of the
previous
case
and
how
his
identification was made.
Trial defense counsel did not inquire about the
members’ races during individual voir dire. Following
individual voir dire, the military judge excused five
members at defense counsel’s request—three of which
requests the Government joined—leaving five
members on the panel.
In response to trial counsel’s request that he
explain the basis for his objection to the composition
of the panel, individual military counsel explained:

8a

“[I]t’s . . . basically a combination of an Article 25
challenge and, I guess, it’s almost like a preventative
Batson challenge. If you don’t put any AfricanAmericans on the panel from the get-go, then you can’t
get a Batson challenge because nobody is getting
eliminated based on their race.” The military judge
rejected this challenge because of the “absen[ce] [of]
any evidence of anything inappropriate being done by
the convening authority in assembling the panel.”
Individual military counsel then made an oral
discovery request for a “statistical breakdown of the
population as far as race with respect to the convening
authority’s command.” The military judge denied the
request on the grounds the members’ questionnaires
noted their races and had been available for a week,
the request was untimely, acquiring the data would
be impracticable, and the resultant statistics were not
relevant absent evidence of impropriety or a pattern
of discrimination in other panels, which she had not
seen.
Responding to the first reason given by the
military judge, individual military counsel countered:
“If you look at the questionnaires, only some of them
have
racial
information
listed
upon
the
questionnaire.” The military judge noted this
response but did not change her ruling. In addition,
apparently responding to the military judge’s
statement that she had not seen any pattern of
discrimination, individual military counsel said:
Can I just make a quick record with the
last members panel that [the trial
counsel], myself, and you were on? We

9a

had a different African-American
client, and also it was an all-white
panel. So, this is the second time in a
row that we’ve been on a case where the
same issue has occurred.
The military judge replied that she did not believe
that two examples evidenced a pattern.2 Appellant
never moved to stay the proceedings under Rule for
Courts-Martial (R.C.M.) 912(b) “on the ground that
members were improperly selected.”
Appellant and amicus NAACP now claim the same convening
authority detailed all-white panels in three other courts-martial
in which the accused was African American. Appellant first
introduced this allegation at the NMCCA—not at the courtmartial—through a declaration by the Executive Officer of
Defense Service Office Southeast. The declaration averred the
author sent a letter to the convening authority concerning the
racial diversity of members detailed in three recent cases
(described without further detail as “United States v. LTJG
Johnson,” “United States v. MMC Rollins,” and “United States v.
LTJG Jeter”). Without providing a foundation, the letter asserted
that in each of those courts-martial, the accused was African
American and all of the members were Caucasian. He did not
claim the convening authority knew the race of any member
detailed to those cases or intentionally excluded any person
because of race. Rather, he requested minority representation in
his client’s case. While it granted the motion to attach the
declaration, the NMCCA made no finding of fact as to the truth
of any matter alleged therein or the race of any panel member.
The declaration further avers that upon receiving the letter, the
convening authority amended the court-martial convening order
in LTJG Johnson’s case to include “one African-American, one
Hispanic-American, one Asian-American, one Native-American
and one Caucasian female member.”
2

10a

The record demonstrates that the convening
authority had reason to know that Appellant was
African American, as that information was included in
a report that summarized testimony from the
complaining witnesses. The record, however, contains
no evidence that the convening authority either
actually knew or had reason to know the races of the
members when he detailed them to Appellant’s courtmartial.3 As discussed infra Part II.C., none of the
members selected were from his command, and all
members confirmed during voir dire they neither
personally knew nor worked with the convening
authority. Moreover, only one member’s questionnaire
asked for the member’s race. That member checked a
box for “Caucasian.” The other members were not
asked, and did not provide, any information about
their races. Though he received the trial
questionnaires a week before trial, trial defense
counsel neither objected to the questionnaires nor
requested supplemental questionnaires.4
The NMCCA found that, excepting the one member whose
questionnaire indicated race, there was “no evidence that the CA
knew the race of any of the . . . members detailed to the courtmartial” and “no reason to suspect that the CA personally knew
[the members] and would therefore have known their race.” 2018
CCA LEXIS 476, at *25, 2018 WL 4784569, at *10. The Courts of
Criminal Appeals have factfinding authority under Article 66,
UCMJ, 10 U.S.C. § 866 (2012); under Article 67, UCMJ, 10 U.S.C.
§ 867 (2012), we do not. See, e.g., United States v. Piolunek, 74
M.J. 107, 110 (C.A.A.F. 2015). Where, as here, a CCA’s findings
are neither clearly erroneous nor unsupported by the record, this
Court defers to those factual findings. United States v. Tollinchi,
54 M.J. 80, 82 (C.A.A.F. 2000).
4 In his initial written discovery request, Appellant requested the
Government produce “Panel Selection” information, including
3

11a

After the trial, Appellant’s counsel submitted a
request for clemency to the convening authority,
asserting that “[b]ased on Batson principles, the
military judge should have required the Convening
Authority to articulate the non-race based reason for
excluding all African-Americans, but [the military
judge] did not. This was prejudicial error.”5 The
court-martial member questionnaires responsive to the items
listed in R.C.M. 912(a)(1), which includes race, “all written
matters provided to the convening authority concerning selection
of the members detailed to the court-martial” under R.C.M.
912(a)(2), and “all information known to the government as to the
identities of potential alternate and/or additional panel
members.” Appellant never followed up on these requests,
despite filing a supplemental discovery request “highlight[ing]
material discovery yet to be delivered” and, later, a motion to
compel “discovery which is material to the preparation of the
defense.” The only material in the record responsive to discovery
requests regarding the panel is the member questionnaires, but
the defense never presented the other requests to the military
judge as R.C.M. 912 permits.
5 Appellant also raised this argument to the military judge, and
the NMCCA. 2018 CCA LEXIS 476, at *23–24, 2018 WL
4784569, at *9. In his briefing to this Court, Appellant urges a
“workable process” outside of Article 25, UCMJ, 10 U.S.C. § 825
(2012), wherein:
First, the defense identifies that the panel does
not include any members from the same
cognizable racial group as the accused and
raises the issue with the military judge before
the members are empaneled, requesting to have
the convening authority detail additional
members of the same race as the accused. The
military judge, after appropriately inquiring
into the matter, then adjourns the voir dire
proceedings so that the convening authority

12a

convening authority denied relief, approving the
findings and sentence. The NMCCA affirmed. 2018
CCA LEXIS 476, at *33, 2018 WL 4784569, at *12.
The NMCCA found the military judge erred in
declaring that the defense objection was untimely and
that she was mistaken about the content of the
questionnaires, but concluded she did not abuse her
discretion. The NMCCA found that the requested data
was “irrelevant” because trial defense counsel had
asked for the racial makeup of the convening
authority’s “command” instead of the convening
authority’s “pool of available members,” and no
members were selected from the convening authority’s
command. 2018 CCA LEXIS 476, at *22, 2018 WL
4784569, at *8. The NMCCA also rejected the claim of
unlawful command influence, citing a lack of evidence
concerning the convening authority’s knowledge of the
can be notified. Finally, upon notification, the
convening authority . . . either details
additional members on the basis of race for the
purpose of inclusion or provides a race-neutral
reason for declining to do so.
Reply Brief for Appellant at 6–7, United States v. Bess, No. 190086 (C.A.A.F. July 29, 2019) (emphasis added). There is no
procedure to ensure a particular racial composition in any court
in the United States, and, as discussed infra Part II.A., the legal
precedent is to the contrary. While the process is both different
than its civilian counterpart and the subject of numerous
appeals, if what Appellant seeks is an extraconstitutional and
radical overhaul of Article 25, UCMJ, and the member selection
system in the military—a system that has been in place for a very
long time—his suggestions are better addressed to Congress. No
one has challenged the constitutionality or soundness of Article
25, UCMJ, and we decline to judicially craft a rule encroaching
on Congress’s legislative province.

13a

races of members detailed to the court-martial. 2018
CCA LEXIS 476, at *25–27, 2018 WL 4784569, at *9–
10. Additionally, the NMCCA found no precedent to
extend United States v. Batson, 476 U.S. 79 (1986), to
the convening authority’s selection of members and
held the mere absence of African Americans on the
panel did not demonstrate systematic exclusion. 2018
CCA LEXIS 476, at *23–24, 2018 WL 4784569, at *9.
II. Discussion
The issues in this case are relatively
straightforward. Appellant’s complaint at trial rested
on his supposition that the court-martial didn’t
include members of his race; his complaints on appeal
allege violations of the Due Process Clause of the Fifth
Amendment and Article 37, UCMJ, because he
objected to the panel composition and no action was
taken. Moreover, Appellant appears to believe that
the fact a court-martial panel doesn’t include
members of an accused’s race remedies deficient
requests for irrelevant discovery at trial, or otherwise
entitles an accused on appeal to further factfinding at
a DuBay6 hearing. His arguments— both at trial and
now—have no support in the law for the reasons set
forth below.
A. The Fifth Amendment

Appellant argues that
the convening
authority’s selection of members violated the Fifth
Amendment’s implicit guarantee of equal protection of
6

United States v. DuBay, 17 C.M.A. 411, 37 C.M.R. 411 (1967).

14a

the laws. We review this question of law de novo. See
United States v. Riesbeck, 77 M.J. 154, 162 (C.A.A.F.
2018).7
The sole basis for Appellant asserting a
constitutional violation at trial was his claim that
there were no African American members included on
his court-martial panel and one other. There are
several logical flaws with this. First, because the
questionnaires did not have this information, and
because Appellant declined to inquire into the races
during voir dire, we don’t know with certainty what
race any member save one identifies as. Second, there
is no constitutional or statutory right to have
members of your own race (or any other) included on
either a court-martial panel or a civilian jury. See
Powers v. Ohio, 499 U.S. 400, 404 (1991). And third,
there is precisely zero evidence that this convening
authority knew or had reason to know the race of the
persons he detailed to the court-martial or engaged in
any impropriety.
What the Fifth Amendment provides is not a
promise to include, but rather protection against
intentional racial discrimination through exclusion.
Cf. Flowers v. Mississippi, 139 S. Ct. 2228, 2242 (2019)
The Government asserts that we should review the Fifth
Amendment issue for plain error because Appellant at trial did
not specifically argue that a racial group was systematically
excluded from his court-martial panel in violation of the
standards set forth in Castaneda v. Partida, 430 U.S. 482 (1977).
We conclude that Appellant’s citation of Batson, 476 U.S. 79, and
reference to a possible pattern of discrimination in recent cases
adequately preserved his Fifth Amendment arguments.
7

15a

(“Equal justice under law requires a criminal trial free
of racial discrimination in the jury selection process.”);
Batson, 476 U.S. at 93 (“As in any equal protection
case, the burden is, of course, on the defendant who
alleges discriminatory selection of the venire to prove
the existence of purposeful discrimination.” (internal
quotation marks omitted) (citation omitted)); United
States v. Santiago-Davila, 26 M.J. 380, 390 (C.M.A.
1988) (Fifth Amendment equal protection includes the
“right to be tried by a jury from which no ‘cognizable
racial group’ has been excluded.” (quoting Batson, 476
U.S. at 96)).
Neither in civilian courts nor in a court-martial
does the Fifth Amendment guarantee an accused
jurors or members who are of the same race. See, e.g.,
Powers, 499 U.S. at 404; Batson, 476 U.S. at 85; Taylor
v. Louisiana, 419 U.S. 522, 538 (1975); Virginia v.
Rives, 100 U.S. 313, 323 (1879); United States v.
Adkinson, 916 F.3d 605, 609 (7th Cir. 2019); Sanchez
v. Roden, 753 F.3d 279, 290 (1st Cir. 2014); United
States v. Mitchell, 502 F.3d 931, 952 (9th Cir. 2007);
Lowery v. Cummings, 255 F. App’x 409, 420 (11th Cir.
2007); United States v. Brooks, 161 F.3d 1240, 1246
(10th Cir. 1998); United States v. Steen, 55 F.3d 1022,
1030 (5th Cir. 1995).
An accused has an absolute right to a fair and
impartial panel, guaranteed by the Constitution and
effectuated by Article 25, UCMJ’s member selection
criteria and Article 37, UCMJ’s prohibition on
unlawfully influencing a court-martial. See also
Riesbeck, 77 M.J. at 163. Neither of those articles
requires affirmative inclusion. Rather, Article
25(d)(2), UCMJ, provides in relevant part: “When

16a

convening a court-martial, the convening authority
shall detail as members thereof such members of the
armed forces as, in his opinion, are best qualified for
the duty by reason of age, education, training,
experience, length of service, and judicial
temperament.” Race is not one of the criteria.8 And by
its terms, Article 37(a), UCMJ, expressly prohibits the
convening authority from selecting members in an
attempt to influence the outcome of the court-martial,
on the basis of race or otherwise. See infra Part II.C.
Of course, if a convening authority, in selecting
the members to detail to a court-martial, intentionally
excluded potential members on the basis of race, the
convening
authority’s
actions
would
be
unconstitutional. But that is entirely different than a
This Court has held, however, that the convening authority
may consider race in detailing members if that consideration
serves “deliberately to include qualified persons,” rather than to
exclude members based on race. United States v. Crawford, 15
C.M.A. 31, 41, 35 C.M.R. 3, 13 (1964); see also Riesbeck, 77 M.J.
at 163 (Crawford allows a convening authority to “seek[] in good
faith to make the panel more representative of the accused’s race
or gender”). Even these decisions are constitutionally
problematic in some sense, given that they seemingly stem from
some notion that an accused “has a better chance of winning if
more members of his race are on the jury. But that thinking
relies on the very assumption that Batson rejects: that jurors
might be partial to the defendant because of their shared race.”
Flowers, 139 S. Ct. at 2270 (Thomas, J., dissenting) (internal
quotation marks omitted) (citation omitted); see also Castaneda,
430 U.S. at 499 (“Because of the many facets of human motivation,
it would be unwise to presume as a matter of law that human
beings of one definable group will not discriminate against other
members of their group.”). In any event, “may” does not equate
to “must.”
8

17a

mere failure to include, which is what Appellant
complained of at trial, and which many courts, see
supra, including our Court in United States v. Loving,
found insufficient to support a Fifth Amendment
claim. 41 M.J. 213, 285 (C.A.A.F. 1994) (“A prima facie
case of systematic exclusion is not established by the
absence of minorities on a single panel.”).
B. Request to Extend Batson and Apply Castaneda

Nevertheless, on appeal Appellant now urges
us to apply the frameworks of either Batson or
Castaneda to find that the absence of African
Americans on his panel constitutes an equal
protection violation. We decline this invitation.
1.
Batson held that, under the Equal Protection
Clause, peremptory strikes of an African American
from the jury venire may establish a prima facie case
of purposeful discrimination, and once that prima
facie case is established, the burden shifts to the
government to provide a race-neutral explanation for
the strike. 476 U.S. at 96–97.
Just as the Equal Protection Clause
forbids the States to exclude black
persons from the venire on the
assumption that blacks as a group are
unqualified to serve as jurors, so it
forbids the States to strike black
veniremen on the assumption that they
will be biased in a particular case
simply because the defendant is black.

18a

The core guarantee of equal protection,
ensuring citizens that their State will
not discriminate on account of race,
would be meaningless were we to
approve the exclusion of jurors on the
basis of such assumptions, which arise
solely from the jurors’ race.
Id. at 97–98. The Court’s holding further took into
account the fact that peremptory strikes may “permit
those to discriminate who are of a mind to
discriminate,” id. at 96 (internal quotation marks
omitted) (citation omitted), and previous cases
imposed too high a bar by requiring proof of repeated
racial strikes outside of the defendant’s particular
case, id. at 92–93. Recognizing the truism that “the
Constitution prohibits all forms of purposeful racial
discrimination in selection of jurors,” id. at 88, the
Court distilled from its broad discussion of equal
protection principles the narrow conclusion that “a
defendant may establish a prima facie case of
purposeful discrimination in selection of the petit jury
solely on evidence concerning the prosecutor’s exercise
of peremptory challenges at the defendant’s trial.” Id.
at 96.
Batson procedures do apply in the military
justice system when a party makes a peremptory
challenge, Santiago-Davila, 26 M.J. at 389–90, but the
narrow terms of Batson’s holding neither compel nor
impel us to extend it to a convening authority’s
selection of members, the manner of which Article 25,
UCMJ, limits and directs, even if his supposition
about the race of his panel’s members was an
established fact. Nor does Appellant cite any

19a

precedent that would require extending Batson’s
holding outside the context of peremptory challenges.
Indeed, the only extensions of Batson have been
within the peremptory strike context itself. See
Flowers, 139 S.
Ct.
at
2243
(recognizing
application to gender discrimination, criminal
defendant’s peremptory strikes, and civil cases).9
2.
Castaneda is not so limited in scope.
Nevertheless, even if Castaneda’s framework for
addressing systematic discrimination in the selection
of grand jurors could be extended to a convening
authority’s selection of court-martial members, it
would not change the outcome in this case. There, in
evaluating a prisoner’s claim alleging systematic
discrimination against Mexican Americans in the
selection of members of the grand jury that indicted
him, 430 U.S. at 485–86, the Supreme Court held that
there is a three-step process for making a prima facie
showing that a procedure employed for selecting
grand jurors violates the Equal Protection Clause. Id.
at 494. The Supreme Court explained:
The first step is to establish that the
group is one that is a recognizable,
Other federal and state courts have held that Batson should not
be extended to other contexts. See, e.g., United States v. Elliott,
89 F.3d 1360, 1364–65 (8th Cir. 1996) (“Batson applies only to
peremptory strikes. We know of no case that has extrapolated the
Batson framework to for-cause strikes.”); State v. Gould, 142 A.3d
253, 261 (Conn. 2016) (“[T]he Batson framework has been limited
to peremptory challenges.”).
9

20a

distinct class, singled out for different
treatment under the laws, as written or
as applied. Hernandez v. Texas, 347 U.S.
[475, 478–479 (1954)]. Next, the degree
of underrepresentation must be proved,
by comparing the proportion of the group
in the total population to the proportion
called to serve as grand jurors, over a
significant period of time. Id. at 480. . . .
Finally, . . . a selection procedure that is
susceptible of abuse or is not racially
neutral supports the presumption of
discrimination raised by the statistical
showing. Washington v. Davis, 426 U.S.
[229, 241 (1976)]; Alexander v.
Louisiana, 405 U.S. [625, 630 (1972)].
Id.10

We have not determined whether and how
Castaneda applies in the military justice system
where specific criteria for selecting members exist, see
Article 25, UCMJ, none of which are race, and where
deployments and other factors would likely skew a
straight percentage comparison. Yet, in Loving, we
ruled that the absence of minorities on a single courtmartial panel does not make out a prima facie case of
systematic exclusion. 41 M.J. at 285. To support this
rule, we noted that a prima facie case of
underrepresentation was established in Castaneda
“by comparing [the] population ‘to the proportion
Though Castaneda itself dealt with grand jurors, its
framework applies to petit jury venires as well. See Batson, 476
U.S. at 94.
10

21a

called to serve . . . over a significant period of time.’”
Id. (internal quotation marks omitted) (quoting
Castaneda, 430 U.S. at 494). In particular, that
prisoner presented statistics, which the government
did not contest, showing that 79.1% of his county’s
population was Mexican American, but that over an
eleven-year period, only 39% of grand jurors in the
county were (or appeared to be) Mexican American.
Castaneda, 430 U.S. at 486–87.
Were Castaneda to apply—however imperfectly
given the unique characteristics of the military justice
system—we need decide nothing more than that
Appellant fails to meet the second prong of Castaneda.
Appellant and the amicus NAACP have proffered
allegations that within a one-year period, the
convening authority detailed all-white panels in four
cases. Even if mere allegations constitute competent
evidence (and we do not believe they do), one year is
not a “significant period of time” and would not
establish a prima facie case under the Castaneda
framework. See, e.g., Hobby v. United States, 468 U.S.
339, 341 (1984) (seven years was significant period);
Castaneda, 430 U.S. at 487 (eleven years was
significant period); United States v. Quinones, No. 9310751, 1995 U.S. App. LEXIS 1635, at *30–31, 1995
WL 29500, at *10–11 (9th Cir. Jan. 25, 1995)
(unpublished) (one year of data insufficient); Ramseur
v. Beyer, 983 F.2d 1215, 1233 (3d Cir. 1992) (two years
was not significant period); Bryant v. Wainwright, 686
F.2d 1373, 1377–78 (11th Cir. 1982) (minor statistical
variations over five-year period insufficient).11 What
11

Of note, Castaneda itself involved a process wherein the

22a

we said in Loving—that the absence of minorities on
a single panel does not make out a prima facie case of
systematic exclusion—is likewise true if there are
allegations concerning several panels over a short
period of time. See Bryant, 686 F.2d at 1379 (for grand
jury foreperson selection, “ten selections from a brief
three and one-half year period simply is not
sufficiently large to allow a meaningful statistical
comparison”); cf. Truesdale v. Moore, 142 F.3d 749,
756 (4th Cir. 1998) (“[A]llegations of statistical
disparity will not suffice to show a violation of the
Fourteenth Amendment where no discriminatory
purpose was afoot.”).
The case law makes clear that even if no
African American members were included in
Appellant’s case, a fact that is unknown, even when
combined with other anecdotal allegations raised by
the trial defense counsel and now amici and the
appellate defense counsel, it does not establish a
prima facie case of exclusion based on race. Rather, we
cleave to the ordinary rule that without contrary
indication, “the presumption of regularity requires us
to presume that [the convening authority] carried out
the duties imposed upon him by the Code and the
Manual.” United States v. Wise, 6 C.M.A. 472, 478, 20
authority selecting grand jurors turned over periodically: under
the “key man” system, the state district judge would appoint
three to five jury commissioners, those commissioners would then
select the pool of grand jurors, and the judge would then test their
qualifications. 430 U.S. at 484. The district judge who
impaneled the respondent’s grand jury was in charge for only two
and one-half years of the eleven-year period considered in that
case. Id. at 495–96.

23a

C.M.R. 188, 194 (1955); see also United States v. Scott,
66 M.J. 1, 4 (C.A.A.F. 2008) (applying a “presumption
of regularity” to the convening authority’s actions
(internal quotation marks omitted) (citation
omitted)). We thus presume the convening authority
acted in accordance with Articles 25 and 37, UCMJ,
here. The military judge stated that she had “not seen
any indication of any pattern of discrimination by
excluding minority members” in prior panels, or any
indication of impropriety by the convening authority.
Based on our review of the record and the pertinent
case law, we agree with the military judge.12
C. Unlawful Influence

Appellant also fails to show unlawful command
influence. We review such claims de novo. United
States v. Salyer, 72 M.J. 415, 423 (C.A.A.F. 2013).
Article 37(a), UCMJ, provides in relevant part: “No
person subject to this chapter may attempt to coerce
or, by any unauthorized means, influence the action of
a court-martial or any other military tribunal or any
member thereof, in reaching the findings or sentence
in any case.” Court stacking is a form of unlawful
command influence. Riesbeck, 77 M.J. at 165. For
actual unlawful command influence, the accused must
show beyond “mere . . . speculation”: (1) facts, that if
We reject Appellant’s suggestion that the military judge’s
denial of his discovery request “compound[ed] the prejudice” by
preventing him from producing evidence to support his equal
protection claim. As discussed below in Part II.D., the military
judge properly denied the request because it sought irrelevant
information and the request would not have furthered Appellant’s
equal protection or unlawful command influence claims.
12

24a

true, constitute unlawful command influence; (2) the
prior proceedings were unfair; (3) the unlawful
command influence caused the unfairness. United
States v. Biagase, 50 M.J. 143, 150 (C.A.A.F. 1999).
On one end of the spectrum are cases like
Riesbeck, where we found unlawful court stacking
because, inter alia, the record “paint[ed] a clear
picture of court stacking based on gender in an
atmosphere of external pressure to achieve specific
results in sexual assault cases,” the panel was
“seventy percent female, most of whom [were] victim
advocates,” the enlisted pool “was only thirteen
percent female,” and the impaneling authorities
thought it “‘very important’ to have a ‘large number of
women’” decide the case, 77 M.J. at 164, 166.
On the other end of the spectrum are cases like
United States v. Lewis, where we found no improper
motive when presented with a statistically high and
anomalous number of women on the panel given the
comparatively low number of women on panels over
the preceding three years at the same air force base.
46 M.J. 338, 339, 341–42 (C.A.A.F. 1997); see also id.
(bare numbers in unit strength report showing total
officers and enlisted members as well as how many
were women “d[id] not adequately reflect the pool of
individuals eligible and available to serve as court
members,” so did not evidence improper selection).
The paucity of evidence here is even greater than that
found to be deficient in Lewis.
The record shows the convening authority
neither knew nor had reason to know the races of nine
of the ten members whom he detailed to Appellant’s

25a

court-martial; it does not reveal with certainty the
actual racial makeup of Appellant’s panel; it contains
no findings of fact by the NMCCA with respect to
allegations regarding the races of members in other
courts-martial, and at most Appellant presents a
potential anomaly with a few cases within a short
period of time, with no evidence whatsoever of
intentional discrimination. Appellant fails to carry his
burden to show unlawful command influence by more
than mere speculation. With due respect to the
dissents, United States v. Bess,__M.J.____,____(5 n.5,
12) (Ohlson, J., with whom Sparks, J., joined,
dissenting) (C.A.A.F. 2020); id. at____(2) (Sparks, J.,
with whom Ohlson, J., joined, dissenting), the mere
absence of African Americans on Appellant’s panel
does not itself raise reasonable doubt as to the
procedure used to select his panel. See supra Part II.A.
Nor does Appellant show apparent unlawful
command influence—that “an objective, disinterested
observer, fully informed of all the facts and
circumstances, would harbor a significant doubt about
the fairness of the proceeding.” United States v. Boyce,
76 M.J. 242, 249 (C.A.A.F. 2017) (internal quotation
marks omitted) (citation omitted). A fully informed
observer would know the convening authority only
knew one member’s race, that no member knew or
worked with the convening authority, and—taking
the declaration at face value—the convening
authority was amenable to including diverse members
when asked to do so, which Appellant failed to do prior
to trial. Appellant presents no reasonable grounds for
“an objective, disinterested observer, fully informed of
all the facts and circumstances”—to include the legal
fact that no one is entitled to members of the same

26a

race in either a military or civilian court—to “harbor
a significant doubt about the fairness of the
proceedings.” Id. (internal quotation marks omitted)
(citation omitted).
D. Appellant’s Discovery Request

The third assigned issue is whether the
NMCCA erred in affirming the military judge’s denial
of the oral discovery request that Appellant made at
trial. We review a military judge’s ruling on a request
for production of evidence for an abuse of discretion.
United States v. Rodriguez, 60 M.J. 239, 246 (C.A.A.F.
2004). A military judge abuses her discretion when
her findings of fact are clearly erroneous or her ruling
is influenced by an erroneous view of the law. United
States v. Freeman, 65 M.J. 451, 453 (C.A.A.F. 2008).
A military judge also abuses her discretion when a
“decision . . . is outside the range of choices reasonably
arising from the applicable facts and the law.” United
States v. Criswell, 78 M.J. 136, 141 (C.A.A.F. 2018)
(internal quotation marks omitted) (quoting United
States v. Irizarry, 72 M.J. 100, 103 (C.A.A.F. 2013)).
An accused is entitled to production of “relevant
and necessary” evidence. R.C.M. 703(f)(1). Appellant
requested “a statistical breakdown of the population
as far as race with respect to the convening authority’s
command.” The military judge denied the request on
three grounds, and as noted supra Part I, the NMCCA
disagreed with her in part but upheld the denial for a
different reason, which is permissible. See Murr v.
Wisconsin, 137 S. Ct. 1933, 1949 (2017) (explaining
that a “judgment below . . . may be affirmed on any
ground permitted by the law and record”); United

27a

States v. Robinson, 58 M.J. 429, 433 (C.A.A.F. 2003)
(affirming a military judge’s denial of a motion to
suppress evidence where “the military judge reached
the correct result, albeit for the wrong reason”).
We agree with the NMCCA that the
information sought by Appellant was irrelevant
because, in fact, the information requested had little
to do with the available pool of members. We further
conclude that the information requested is not
relevant because it would do nothing to add to the
legal force of his observation at trial that he was
African American and it appeared the members were
not. Just as the bare population statistics in the unit
strength report in Lewis did “not adequately reflect
the pool of individuals eligible and available to serve
as court members,” 46 M.J. at 341–42, so too would
Appellant’s request here not produce relevant
information. In Lewis:
[w]ith respect to the officer members,
[the evidence did] not reflect how many
officers were ineligible or disqualified
because of their involvement in law
enforcement or the investigation of this
case, and it [did] not reflect how many
were unavailable because of absence
from the command or operational
duties. With respect to the enlisted
members, the defense evidence lack[ed]
the same information. In addition, it
fail[ed] to identify how many enlisted
airmen
were
presumptively
unqualified because they lacked the

28a

experience and maturity contemplated
by Article 25, UCMJ, 10 U.S.C. § 825.
Id. Appellant’s request for a racial breakdown of the
convening authority’s command suffers the same
shortcomings. First, the request covered only the
convening authority’s command, which is only a
subset of the total eligible pool of members. Second, a
racial breakdown alone does not reveal enough detail
to discern who would be eligible to serve on a panel.
As Lewis describes, far more factors bear on that
determination, see id., and that is the legally relevant
question.
Appellant’s argument is that although trial
defense counsel specifically asked for statistical
information concerning the convening authority’s
command, this was clearly meant to include everyone
whom the convening authority could detail to the
court-martial. Appellant asserts that trial defense
counsel’s broad meaning is discernible from the
military judge’s response that the discovery request
was impracticable.
We agree that the wording of any motion must
be understood in the context in which it was made,
especially an oral motion in the middle of a trial. See
R.C.M. 905(a). But in this case, Appellant’s argument
about what the context shows is unpersuasive.
Looking at the entire exchange, the most reasonable
understanding of Appellant’s request was that he was
seeking only the information that he asked for.
Moreover, even if he had received what he now says
he wanted, it would still do nothing to change the legal

29a

landscape.13 The military judge did not abuse her
discretion in denying Appellant’s oral discovery
request.
E. Appellant is Not Entitled to a DuBay Hearing
Finally, Appellant argues that, in the
alternative, he is entitled to a DuBay hearing. A
creature of judicial fiat rather than statute, see United
States v. Ginn, 47 M.J. 236, 243 (C.A.A.F. 1997);
United States v. Ingham, 42 M.J. 218, 224 (C.A.A.F.
1995), the DuBay hearing was created to permit an
accused to gather additional evidence and resolve
conflicting evidence where (1) an issue, such as
ineffective assistance of counsel, was discovered after
trial, see Ginn, 47 M.J. at 244, or (2) a request made
at trial was improperly denied, see United States v.
Riesbeck, No. 1374, slip op. at 1 (C.G. Ct. Crim. App.
Jan. 20, 2015). The goal in either case is to develop a
record so that the appellate court can resolve the
issues presented. United States v. Flint, 1 M.J. 428,
429 (C.M.A. 1976). But it is decidedly not the case that
a DuBay hearing is either necessary or warranted in
an instance, such as this case, where there was no
effort made at trial to develop a record on any relevant

The Castaneda framework and the unlawful influence
framework require a proffer of something more than statistical
disparity. As explained above, Appellant still fails the Castaneda
requirement of a comparison of the statistics over a significant
period of time, and the unlawful influence framework requires
some evidence of improper motive. In sum, the mere racial
composition of a court-martial, without more, does not make
discovery into the detailing process relevant and necessary.
13

30a

facts, and the claims on appeal rest on pure
speculation. Cf. Ingham, 42 M.J. at 224.
We have long held that where a post-trial claim
is inadequate on its face, or facially adequate yet
conclusively refuted by the record, such a hearing is
unnecessary. United States v. Campbell, 57 M.J. 134,
138 (C.A.A.F. 2002). “[T]he threshold triggering
further inquiry should be low, but it must be more
than a bare allegation or mere speculation.” United
States v. Johnston, 39 M.J. 242, 244 (C.M.A. 1994).
Because the appellant in Johnston showed “not a
scintilla of evidence” of unlawful command influence,
the Court declined to order a hearing. Id. at 244–45.
And that’s what we face in this case: “not a scintilla of
evidence” the convening authority even knew the race
of more than one person detailed to the panel or had
any malintent in exercising his duty under Article 25,
UCMJ. Moreover, the population statistics Appellant
now seeks would, as in Lewis, prove nothing.
This case differs from Riesbeck. There, defense
counsel at trial produced evidence that, inter alia, the
member questionnaires indicated each member’s
gender; the convening order was amended multiple
times to add women; the final panel had seven women,
five of whom were victim’s advocates; and defense
counsel produced the rosters of potential members.
United States v. Riesbeck, No. 1374, 2014 CCA LEXIS
946, at *7–11 (C.G. Ct. Crim. App. Aug. 5, 2014)
(unpublished). It similarly differs from cases like
United States v. Sales, where “there [was] a
reasonable probability that there would have been a
different result if the factual conflicts among the
affidavits were resolved in appellant’s favor”

31a

regarding his ineffective assistance of counsel claim.
56 M.J. 255, 258 (C.A.A.F. 2002). These cases
presented a dispute of material fact or otherwise
raised a reasonable possibility of a colorable claim
that could be developed through a DuBay hearing.
The record here does neither: only one questionnaire
indicated race; there is zero evidence that the
convening order was amended to add or remove
racially representative members for this particular
case;14 the record does not reflect with certainty the
actual racial composition of Appellant’s panel.
Appellant’s speculative assertions do not merit a
DuBay hearing.
And the military judge did not erroneously
deny Appellant’s opportunity to develop the equal
protection and unlawful command influence claims—
fully articulated only on appeal—which were
grounded in truth on nothing more than suppositions
about the racial composition of his panel. First, the
military judge properly denied his mid-voir dire oral
discovery request. See supra Part II.D. Second, while
Appellant did include a broader request for panel
selection information in an initial discovery request
and the record does not show what—beyond the
member questionnaires—he received in return, this
appeared not to concern Appellant at the time. See
supra note 4.
not

Appellant’s supplemental discovery request did
reiterate the request for panel selection

The single change to the convening order appears to be only
in response to Appellant’s request for enlisted representation.
14

32a

information; Appellant’s subsequent motion to compel
did not ask for the information; the military judge
thus made no ruling with respect to the request for
panel selection information in that June 2016 request;
and Appellant did not assign any errors at this Court
or the NMCCA regarding that June 2016 discovery
request, see supra Part I; Bess, 2018 CCA LEXIS 476,
at *2–3, 2018 WL 4784569, at *1. Nor did Appellant
move to stay the proceedings on the ground that
improper selection criteria were used by the
convening authority. See R.C.M. 912(b)(1).
To the extent Appellant now seeks information
that was available yet neither requested nor pursued
at trial, Appellant has waived any right to further
exploration in a DuBay hearing. See United States v.
Curtis, 44 M.J. 106, 133 (C.A.A.F. 1996) (“If the
defense wanted to explore the convening authority’s
role and knowledge [in appointing members], they
could have raised this issue at trial. Because it was
not raised at trial, we hold that this issue was
waived.”).
III. Conclusion
The decision of the United States Navy-Marine
Corps Court of Criminal Appeals is affirmed.

33a

Judge MAGGS, concurring in part and concurring in
the judgment.
I concur in the judgment affirming the U.S.
Navy-Marine Corps Court of Criminal Appeals, and I
join all of the Court’s opinion except for Part II.B.1. In
Part II.B.1., Judge Ryan, joined by Chief Judge
Stucky, concludes that Appellant’s argument based
on Batson v. Kentucky, 476 U.S. 79 (1986), lacks
merit. I agree that Appellant’s argument lacks merit
but, as I explain below, my reasoning is different.
I. Analysis

Appellant makes two arguments advancing his
claim under the Fifth Amendment. One argument is
based on Castaneda v. Partida, 430 U.S. 482 (1977), a
decision concerning the selection of grand jurors.
Appellant acknowledges that “Castaneda is not a
perfect fit as precedent” given the differences between
court-martial panel selection and grand jury
selection. But Appellant argues that we should
adapt Castaneda’s analysis for deciding when courtmartial member selection violates the equal
protection guarantee implicit in the Fifth
Amendment. He asserts that, under Castaneda as
it should be adapted to the military justice system, he
has established a prima facie equal protection
violation by showing (1) that he is African American,
(2) that “African-Americans were not only excluded
from (and underrepresented on) the panel in [his]
case, but in a series of cases,” and (3) that “the
selection process set out in Article 25, UCMJ, is
susceptible to abuse due to the inherent subjectivity
involved.”

34a

In addressing Appellant’s argument, the Court
recognizes that “[w]e have not determined whether
and how Castaneda applies in the military justice
system.” The Court then decides that resolving these
constitutional issues is unnecessary because the
record does not establish one of the factual predicates
of Appellant’s argument. The Court explains: “Were
Castaneda to apply—however imperfectly given the
unique characteristics of the military justice system—
we need decide nothing more than that Appellant fails
to meet the second prong of Castaneda.” Put simply,
for reasons the Court demonstrates, the record does
not establish that African Americans in fact have
been excluded from panels for a significant period. I
agree with the Court’s restrained approach. There is
no need to decide how Castaneda might apply in the
military justice system when the facts do not present
the issue. See City of W. Covina v. Perkins, 525 U.S.
234, 244 (1999) (reasoning that when the record
“undermines the factual predicate for [an] . . .
argument . . . we need not discuss it further”).
Appellant’s other argument advancing his Fifth
Amendment claim is based on Batson, a case
concerning peremptory challenges to members of the
venire. Appellant recognizes that the Batson
precedent is also “not a perfect fit” in a case involving
a convening authority’s selection of panel members,
but he argues that the Court can use Batson as a
“guidepost.” Appellant contends that if (1) “the
defense identifies that the panel does not include any
members from the same cognizable racial group as the
accused” and (2) “raises the issue with the military
judge before the members are empaneled,” then the
equal protection principle in Batson requires the

35a

convening authority either to “detail[] additional
members on the basis of race for the purpose of
inclusion or provide[] a race-neutral reason for
declining to do so.”
In my view, the Court ought to address
Appellant’s Batson argument in the same restrained
manner that it addresses Appellant’s Castaneda
argument. Specifically, we need decide nothing more
than that the record does not establish the factual
predicate for Appellant’s proposed constitutional test.
For the reasons thoroughly explained by the Court, the
record in this case does not establish that the “panel
[did] not include any members from the same
cognizable racial group as the accused.”1 Accordingly,
we do not need and have no reason to decide the
important and difficult issues of whether or how
Batson hypothetically might apply to member
selection by the convening authority. For this reason,
I do not join Part II.B.1. of the Court’s opinion.
The conclusion that Appellant has not
established the factual predicate necessary for his
Batson argument raises the question whether we
should order a hearing pursuant to United States v.
I see no reason to question the good faith of Appellant and his
counsel in assuming that none of the panel members at his courtmartial was African American based on outward appearances.
But this Court cannot rely on this assumption in deciding this
case because nothing in the record provides a basis for concluding
that the assumption is correct. The military judge made no
finding as to the members’ races and explained that she was
uncertain of their races based on their appearances. She properly
refused to infer their races based on stereotypes.
1

36a

DuBay, 17 C.M.A. 147, 37 C.M.R. 411 (1967), to allow
Appellant to discover the race of each of the members
at his court-martial. Our decision in United States v.
Curtis, 44 M.J. 106 (C.A.A.F. 1996), on
reconsideration, 46 M.J. 129 (C.A.A.F. 1997), answers
this question. In Curtis, the appellant requested a
DuBay hearing to determine whether the convening
authority knew that he could have appointed a panel
of all enlisted members under Article 25, UCMJ, 10
U.S.C. § 825. 44 M.J. at 132. We rejected the request
for the DuBay hearing, explaining: “If the defense
wanted to explore the convening authority’s role and
knowledge, they could have raised this issue at trial.
Because it was not raised at trial, we hold that this
issue was waived.” Id. at 133.
The same conclusion follows here. The
inadequate record regarding the members’ races in
this case was not inevitable. Appellant could have
insisted, through a motion to compel, that all of the
questionnaires submitted to the members asked the
members to identify their races. See Rule for CourtsMartial
912(a)(1)(C)
(expressly
requiring
questionnaires to include this question upon the
request of defense counsel). Appellant, however, made
no such motion. Although Appellant timely requested
that trial defense counsel submit questionnaires to
each of the members the convening authority detailed
to his panel, he did not move to compel that all the
questionnaires include a question regarding the
member’s race. And even after Appellant had seen the
members detailed to his court-martial, and had raised
an issue about the composition of the panel, he gave
up a second opportunity to inquire about their races.
Both sides agreed at oral argument that trial defense

37a

counsel could have asked the members during
individual voir dire to identify their races, but trial
defense counsel did not do so. Because Appellant did
not avail himself of either of these opportunities to
determine the races of the members of his panel, he
has waived any right to further discovery regarding
the members’ races in a DuBay hearing.
II. Conclusion

For these reasons, I agree with the conclusion
in Part II.B.1. that Appellant’s Batson argument lacks
merit. But I would not resolve the legal questions of
whether or how Batson principles might apply to
member selection by the convening authority because
those questions are not presented by the facts. Given
that there is no majority view on those issues in this
case, they remain open for decision if the record in a
case ever properly presents them.

38a

Judge OHLSON, with whom Judge SPARKS joins,
dissenting.
The record before this Court unquestionably
compels the remand of this case for an evidentiary
hearing in order to ensure that Appellant’s courtmartial was not subject to the pernicious effects of
unlawful command influence, and to ensure that
Appellant’s constitutional right to equal protection
under the Fifth Amendment was not violated by the
impermissible exclusion of panel members on the
basis of race. Because the majority holds to the
contrary, I must respectfully dissent.
I. Unlawful Command Influence
Issue II in this case reads as follows: “Whether
the convening authority’s selection of members
constituted unlawful command influence.” United
States v. Bess, 79 M.J. 46 (C.A.A.F. 2019) (order
granting review). As we recently held in United States
v. Boyce, 76 M.J. 242, 248 (C.A.A.F. 2017), “[T]he
appearance of unlawful command influence [exists]
where an objective, disinterested observer, fully
informed of all the facts and circumstances, would
harbor a significant doubt about the fairness of the
proceedings.” Thus, it is necessary to begin an
analysis of this case by reviewing “all the facts and
circumstances” relevant to the issues before us.
The filings and the joint appendix reflect the following:


Appellant was an African American male who
was charged with sex-related offenses. His

39a

accusers were white females.


Appellant’s defense was mistaken identity
caused by difficulties with cross-racial
identification. Specifically, Appellant argued
that his white accusers confused him with a
different but similar-looking African American
male who also worked as an x-ray technician at
the hospital where the offenses occurred. Brief
for Appellant at 12–20, United States v. Bess,
No. 19-0086 (C.A.A.F. June 19, 2019).



As in all criminal cases in the military, the
commander who convened Appellant’s courtmartial personally selected the venire panel.
That is, he selected the pool of personnel from
which the court-martial panel members (i.e.,
the jurors) ultimately would be chosen. Thus, it
is essential to note that there was nothing
random about the selection of the venire panel
in this case. See Articles 22 and 23, Uniform
Code of Military Justice (UCMJ), 10 U.S.C. §§
822, 823 (2012).



As soon as the members of the venire panel
walked into the courtroom, Appellant observed
that each and every one of them appeared to be
white.1

In a request for clemency after Appellant’s conviction, trial
defense counsel described the scene in the courtroom as follows:
1

At the beginning of the trial, a white military
judge, asked a white bailiff, to call in the all-

40a



During voir dire, trial defense counsel
challenged the racial composition of the panel.
He pointed out to the military judge that all of
the panel members appeared to be white, and
he also noted that this was the second courtmartial in a row where the accused was African
American but all of the panel members
appointed by this particular convening
authority appeared to be white.2 Trial defense

white military venire panel. As the white
defense attorneys and the white prosecutors
stood at attention as the panel members filed
in, it was difficult to reassure HM2 Bess as he
leaned over to ask, “Why aren’t there any black
people?” This all-white panel would hear
evidence from the four complaining witnesses
in the case—each of them white.
2 In a sworn declaration written after Appellant’s court-martial
but included in the Joint Appendix to this case, Commander
Christopher W. Czaplak, JAGC, USN, the Executive Officer of
Defense Service Office Southeast, cited a letter he sent to the
Commander, Navy Region Mid-Atlantic, which stated in relevant
part:
There is an appearance in the Central Judicial
Circuit that race is being improperly
considered when selecting members for
General Court-Martial Convening Orders. In a
number of cases, most recently United States v.
HM2 Bess, United States v. MMC Rollins, and
United States v. LTG Jeter where defense
counsel have raised this issue, AfricanAmericans were convicted in the Central
Judicial Circuit by all-white panels. All of the
members detailed [by the convening authority]

41a

counsel characterized his motion “almost like a
preventative Batson challenge.”3

to the courts-martial of these accused were
Caucasian. By contrast, minority members
have been detailed to cases involving
Caucasian accused facing court-martial for
sexual assault . . . .
Further, an amicus brief submitted to this Court by the
NAACP Legal Defense & Educational Fund, Inc., states that
during the course of one year this particular convening authority
“detailed four all-white panels for four Black defendants charged
with sex-related offenses.” Brief of Amicus Curiae NAACP Legal
Defense & Education Fund, Inc., in Support of Appellant at 11,
United States v. Bess, No. 19-0086/ (C.A.A.F. June 28, 2019)
(emphasis added) [hereinafter Brief of Amicus NAACP]. Only
eighteen general courts-martial went to trial over that same
period. Id. (citing U.S. Navy Judge Advocate Gen.’s Corps,
Results of Trial, https://www.jag.navy.mil/news/ROT_2016.htm
(last visited June 14, 2019); U.S. Navy Judge Advocate Gen.’s
Corps, Results of Trial, https://www.jag.navy.mil/news/
ROT_2017.htm (last visited June 14, 2019)).
3 Trial defense counsel explained to the military judge what he
meant by a “preventative Batson challenge”:
If you don’t put any African-Americans on the
panel from the get-go, then you can’t get a
Batson challenge because nobody is getting
eliminated based on their race. It is almost as
though [the] command is preventing [African
Americans] from representation on the panel
so that [the prosecution] can avoid a Batson
challenge. . . .
....

42a



In furtherance of his motion, trial defense
counsel specifically asked the military judge to
give him the opportunity to discover the
“statistical breakdown of the population as far
as race with respect to the convening
authority’s command.” The military judge
denied the defense motion.



Appellant was subsequently convicted by the
panel members and sentenced to prison.

Based on these facts, would “an objective,
disinterested observer . . . harbor a significant doubt
about the fairness of the proceedings”? Boyce, 76 M.J.
at 248. In light of the current state of the record, the
answer is an unequivocal and emphatic, “Yes.”
Because of the grave and broad implications of
this matter, however, it is important that this Court
not prematurely reach any conclusions—or cast any
. . . With respect to the evidence and the
burden, with a Batson challenge, the burden
would be on the attorney challenging that
member to show evidence why they are
challenging that member but for the[ir] race, so
we would argue that, by avoiding a Batson
challenge, by not putting . . . AfricanAmericans on the panel, the same burden
should apply to the people [i.e., the convening
authority and those acting on behalf of the
convening authority] that didn’t put any
African-Americans on the panel.

43a

aspersions—regarding precisely what happened in
this, and similarly situated, cases. Simply stated, we
need more information. Accordingly, at this juncture
I merely seek to remand this case for a DuBay
hearing so that additional facts can be developed
and included in the record.4 DuBay, 17 C.M.A. at 147,
37 C.M.R. at 411.
Indeed, that is exactly what occurred in the
recent case of United States v. Riesbeck, 77 M.J. 154
(C.A.A.F. 2018), which also involved the issue of
unlawful command influence resulting from a
convening authority’s selection of court-martial
members. Specifically, in that case there were
allegations of “court stacking” because of the
disproportionately large number of females selected to
serve on the court-martial panel of a servicemember
charged with rape, and the court below “ordered a
post-trial hearing in accordance with DuBay . . . to
receive testimony and evidence regarding the
composition of Appellant’s court-martial panel.” Id. at
159–60, 163. Surely a DuBay hearing is similarly
reasonable, appropriate, and prudent in the instant
case.5 And yet, the majority inexplicably has chosen
to foreclose this basic and necessary avenue of inquiry.
Ordering a factfinding “DuBay hearing” is an often-used
practice in the military when information relevant to deciding an
issue before the Court is not “apparent on the face of the record.”
United States v. DuBay, 17 C.M.A. 147, 149, 37 C.M.R. 411, 413
(1967).
5 The types of questions that could be answered in the course of a
DuBay hearing are self-evident: Were there any African
Americans on the panel at Appellant’s court-martial? What was
4

44a

In concluding that no DuBay hearing is
necessary, the majority assumes—and rests its
holding on the conclusion that—“[t]he record shows
the convening authority neither knew nor had reason
to know the races of nine of the ten members whom
he detailed to Appellant’s court-martial.” But the
record reveals no such thing. In actuality, the record
is devoid of any information regarding what the
convening authority knew about the race of the
members he selected or how he selected those
the racial composition of the pool of potential panel members
from which the convening authority could have selected? Was the
convening authority aware of the race of the members he detailed,
either through personal knowledge or through documents or
other information presented to him? What was the process the
convening authority used in selecting members for Appellant’s
court-martial? Did the convening authority’s subordinate
commanders or the staff judge advocate (or other staff members)
screen potential panel members based on race, thereby
effectively excluding African Americans from the convening
authority’s consideration? How did the convening authority know
how to identify minority members to be added to a later courtmartial when that African American defendant similarly objected
to the original all-white panel? See United States v. Bess, M.J., (4
n.2) (C.A.A.F. 2020). In how many instances did the same
convening authority convene an all-white venire panel when the
accused was a member of a racial minority, and in how many
instances were these members of a racial minority accused of sexrelated offenses? If the answers responsive to the questions
above are supportive of Appellant’s position, can the convening
authority identify race-neutral reasons why he appointed allwhite panels in several cases where an African American was
accused of sex-related offenses?

45a

members for Appellant’s court-martial panel.
II. The Defense Discovery Motion
The majority’s decision to affirm the NavyMarine Corps Court of Criminal Appeals is
particularly surprising because even if we were to
remove our analysis of this case from an unlawful
command influence context and instead analyze it
simply as a mundane discovery motion, a remand for a
DuBay hearing still would be clearly warranted.6 This
conclusion is supported by the following points.
In essence, trial defense counsel was making an
oral discovery motion when he asked the military
judge to give him the opportunity to discover the
“statistical breakdown of the population as far as race
with respect to the convening authority’s command.”
The standard we use in reviewing a military judge’s
discovery ruling is an abuse of discretion. United
States v. Rodriguez, 60 M.J. 239, 246 (C.A.A.F. 2004)
(citing United States v. Breeding, 44 M.J. 345, 349
(C.A.A.F. 1996)). By definition, the military judge in
this case abused her discretion because her ruling on
the motion was grounded in her misunderstanding of
both the law and the facts. See United States v.
Graner, 69 M.J. 104 (C.A.A.F. 2010).
First, the military judge concluded that
Appellant’s
discovery motion was untimely.
Issue III in this case reads as follows: “Whether the lower
court erred in affirming the military judge’s denial of Appellant’s
motion to produce evidence of the racial makeup of potential
members.” Bess, 79 M.J. at 47.
6

46a

Specifically, she stated:
[W]e’ve all had the members’
questionnaires for a week, and the race
that each member most strongly
identifies with is noted on the
questionnaires. If this was an issue
that you wanted to raise prior to now,
when we are in individual voir dire,
that would have been a more
appropriate time.
(Emphasis added.) Her reasoning, however, was
faulty—both factually and legally. The factual
assertion that the race of each member was noted on
the questionnaires was inaccurate. For unexplained
reasons, only one of the questionnaires listed race.
Moreover, as we noted in Riesbeck, Rule for CourtsMartial (R.C.M.) 912(b)(3) “provides an exception to
the requirement that a timely motion be made where
an objection is based on an allegation that the
convening authority selected members for reasons
other than those listed in Article 25, UCMJ.”7 77 M.J.
at 160 (emphasis added). Thus, the military judge was
wrong when she ruled that Appellant’s discovery
motion was untimely when he raised it during voir
dire.
7Article

25(e)(2), UCMJ, states in relevant part: “When convening
a court-martial, the convening authority shall detail as members
thereof such members of the armed forces as, in his opinion, are
best qualified for the duty by reason of age, education, training,
experience, length of service, and judicial temperament.” 10
U.S.C. § 825(e)(2).

47a

Second, the military judge erred in basing her
ruling on her unsubstantiated belief that obtaining
statistical information about Navy personnel would be
a difficult “feat,” stating that she had “no idea how the
command would go about accomplishing” this task.
There was no evidence adduced at the court-martial
which supported this contention that it would be
difficult to obtain the requested information, and in
fact, intuitively the opposite is true; the military is
very adept at tabulating data about its personnel and
that information is readily available.8 Therefore, the
military judge’s purported finding of fact was not
supported by the record and is an abuse of discretion.
See United States v. Gore, 60 M.J. 178, 185 (C.A.A.F.
2004).
Third, the military judge erred both factually
and legally when she ruled that the information
sought by trial defense counsel was irrelevant to his
claim that the convening authority had improperly
excluded African American servicemembers from the
court-martial panel. Specifically, the military judge
averred:
I don’t see, frankly, how it is relevant,
absent any evidence of impropriety. I
have sat on numerous panels and
observed members of other panels
while here, and I have not seen any
See, e.g., U.S. Navy Demographic
Data,
https://www.navy.mil/strategic/Navy_Demographics_Report.pdf
(last visited on May 8, 2020).
8

48a

indication
of
any
pattern
of
discrimination by excluding minority
members.
To begin with, the military judge herself had
previously acknowledged that trial defense counsel’s
argument would be “slightly stronger” if he “knew
more information about the racial and statistical
makeup of the pool of members for that particular
convening authority.” Thus, she conceded that the
information was relevant. But then when trial defense
counsel requested that type of information in order to
support his argument, the military judge executed an
about-face and denied his request.
Further, in ruling on the discovery motion, the
military judge claimed she could not determine the
race of the members of the panel based on her
personal observations. However, at virtually the same
time she claimed that based on her personal
observations of other panels, she could determine
there was no pattern of discrimination based on the
race of the members. To put it charitably, these claims
are in tension with one another. Moreover, in making
these claims the military judge used her personal
observations—rather than in-court evidence—to find
the defense discovery request was not relevant. Again,
this constituted an abuse of discretion. See Gore, 60
M.J. at 185.
It is evident that relevant statistical
information regarding the convening authority’s
command would have been instrumental in
supporting—or refuting—Appellant’s claim that there

49a

had been an improper exclusion of members from the
court-martial panel on the basis of race. And yet, the
majority asserts that Appellant’s claim must fail
because the discovery motion at trial “covered only the
convening authority’s command, which is only a
subset of the total eligible pool of members.” The
majority’s concern is misplaced. In United States v.
Datz, 61 M.J. 37, 42 (C.A.A.F. 2005), this Court
properly noted that an oral motion or objection made
during a court-martial must be considered in context
to determine if the basis for the motion was
sufficiently clear to the military judge. Here, it was
clear to everyone at the court-martial exactly what the
defense was seeking—information that would help to
determine whether there was an improper exclusion
of members from the venire panel on the basis of race.
In light of the fact that trial defense counsel
already had noted that this was the second case in
which an African American servicemember accused of
a sex-related offense was tried by a hand-selected
panel that appeared to be all white, the military
judge’s blanket refusal to let trial defense counsel
simply “peer behind the curtain” at how the convening
authority had selected these panel members was an
abuse of discretion. Thus, contrary to the military
judge’s ruling, trial defense counsel should have been
permitted to obtain such information. Because the
military judge abused her discretion in deciding this
matter, the instant case should be remanded for a
DuBay hearing so that the information may now be
obtained.

50a

III. Appellant’s Constitutional Right to Equal
Protection Under the Fifth Amendment
Even standing alone, the two issues cited
above—i.e., Appellant’s unlawful command influence
claim and the military judge’s abuse of discretion in
resolving Appellant’s discovery motion—provide
compelling and conclusive reasons mandating the
remand of this case for a DuBay hearing. And that is
before I even have had the opportunity to address
Issue I, which serves as the very core of Appellant’s
claim; namely, whether the convening authority’s
selection of members violated his constitutional right
to equal protection under the Fifth Amendment.9
In Batson v. Kentucky, 476 U.S. 79 (1986), the
Supreme Court made the following observation:
More than a century ago, the Court
decided that the State denies a black
defendant equal protection of the laws
The majority characterizes Appellant’s Fifth Amendment claim
as one seeking “to have members of [his] own race . . . included on
. . . [his] court-martial panel.” Although trial defense counsel’s
initial objection stated, “[O]ur client is African-American, and
there’s no African-American representation on the panel,” he
later clarified that the basis for his objection was a “preventative
Batson challenge.” In doing so, trial defense counsel explained, “If
you don’t put any African-Americans on the panel from the getgo, then you can’t get a Batson challenge because nobody is
getting eliminated based on their race.” Thus, contrary to the
majority’s portrayal, Appellant’s claim is rooted not in a failure
to include African Americans on the panel, but in the possible
intentional exclusion of potential members on the basis of race.
9

51a

when it puts him on trial before a jury
from which members of his race have
been purposely excluded. Strauder v.
West Virginia, 100 U.S. 303 (1880).
That decision laid the foundation for
the Court’s unceasing efforts to
eradicate racial discrimination in the
procedures used to select the venire from
which individual jurors are drawn.
Id. at 85 (emphasis added).
Consistent with this line of jurisprudence, the
Supreme Court has unequivocally held that “the
systematic exclusion of [African Americans in the jury
selection process] is . . . an ‘unequal application of the
law.’” Castaneda v. Partida, 430 U.S. 482, 493 (1977)
(quoting Washington v. Davis, 426 U.S. 229, 241
(1976)). Similarly, the Supreme Court has held that
the equal protection component of the Due Process
Clause of the Fifth Amendment prohibits the United
States from engaging in governmental action that
“invidiously discriminat[es] between individuals or
groups.” Washington, 426 U.S. at 239. In United
States v. Santiago-Davila, this Court made clear that
this equal protection component of the Fifth
Amendment applies to the military, holding that the
“equal protection right to be tried by a jury from which
no ‘cognizable racial group’ has been excluded” applies
to courts-martial panels with the same force as it
applies to civilian juries. 26 M.J. 380, 390 (C.M.A.
1988) (quoting Batson, 476 U.S. at 96).
Although

Batson

holds

that

the

Equal

52a

Protection Clause “forbids the prosecutor to challenge
potential jurors solely on account of their race,” the
constitutional scope of that opinion—if not its literal
holding—extends beyond the context of peremptory
challenges during voir dire. Batson, 476 U.S. at 89
(emphasis added). First, in Batson the Supreme Court
specifically noted that “the Constitution prohibits all
forms of purposeful racial discrimination in selection
of jurors.” Id. at 88 (emphasis added). Second, as noted
earlier, the Supreme Court in Batson tellingly
referred to the need “to eradicate racial discrimination
in the procedures used to select the venire from which
individual jurors are drawn.” Id. at 85 (emphasis
added). And third, it simply cannot be the state of the
law that the shield of the Fifth Amendment is strong
enough to protect an African American defendant
from the impermissible exclusion of panel members on
the basis of race during voir dire, but is impotent in
similarly protecting those servicemembers during the
selection of the venire panel in the first instance. Id. at
86.
The uniqueness of the role of the convening
authority in the military justice system underscores
the importance of this point. Unlike in the civilian
jury system, venire pools in the military are not
chosen at random from, for example, voter
registration rolls or Department of Motor Vehicles
databases.
Rather, a convening authority has significant
and broad discretion to detail to the court-martial
panel anyone who, “in his opinion, [is] best qualified
for the duty.” Article 25(e)(2), UCMJ. Accordingly, the

53a

convening authority “has the functional equivalent of
an unlimited number of peremptory challenges.”
United States v. Carter, 25 M.J. 471, 478 (C.M.A.
1988) (Cox, J., concurring) (emphasis added). Thus,
the fundamental equal protection principles espoused
in Batson must apply broadly to the entire juryselection process—to specifically include the
convening authority’s selection of the venire panel—
to ensure that the constitutional rights of accused
servicemembers are protected.10
In the instant case, Appellant properly and
In Castaneda, a case relied upon by the Batson court, the
Supreme Court outlined the process by which an accused could
make a prima facie showing of an equal protection violation in the
context of grand jury selection. 430 U.S. at 494–95. The second
step of the analysis requires an accused to prove the
underrepresentation of a cognizable racial group in the pool of
those called to serve as grand jurors “over a significant period of
time.” Id. at 494. The majority implies that Castaneda requires
an accused to produce data covering a lengthy number of years
before a court could intervene to halt pernicious racial
discrimination. However, the majority fails to explain how their
expansive time frame fits within the unique features of the
military justice system. Convening authorities serve in their
roles for a finite period of time, often for a few years or less. In
the instant case, for example, the convening authority served
from March 10, 2016, to July 20, 2018, for a total of just twentyseven months. Brief of Amicus NAACP, supra note 2, at 20. Thus,
under the majority's view of Castaneda, the constitutional right
to equal protection would be essentially unenforceable in the
military where a convening authority serves in that particular
role for less than a lengthy number of years—as happened in
Appellant’s case.
10

54a

timely sought to avail himself of his constitutional
rights by challenging the composition of the venire
panel during voir dire.11 And yet, the military judge
thwarted his efforts by improperly denying his
discovery motion. This Court must now remedy this
error, and can begin doing so by simply remanding
this case for an evidentiary hearing so that the facts
can be gathered that will either expose and rectify an
invidious pattern of racial discrimination in the
member-selection process, or reveal Appellant’s courtmartial to be a mere “anomaly . . . with no evidence
whatsoever of intentional discrimination.” Bess, M.J.
at (15) (C.A.A.F. 2020). Only then can we be assured
that Appellant’s constitutional rights have been
protected.

The majority faults Appellant for failing to ask the convening
authority to “includ[e] diverse members [on his court-martial
panel] . . . prior to trial.” However, Appellant did not raise
his Fifth Amendment claim prior to trial because only one of the
ten deficient member questionnaires created by the Government
listed race, and thus Appellant was not aware of the suspicious
nature of his all-white panel until he saw the members for the
first time in court during voir dire. As soon as Appellant learned
the racial composition of his panel, he raised his preventative
Batson objection. Further, to be clear, an accused has no right to
a member panel “composed in whole or in part of persons of
[his] own race.” Powers v. Ohio, 499 U.S. 400, 404 (1991)
(emphasis added) (internal quotation marks omitted) (quoting
Strauder, 100 U.S. at 305). But, an accused such as this
Appellant “does have the right to be tried by a jury whose
members are selected by nondiscriminatory criteria,” and it is
this constitutional right of which Appellant sought to avail
himself at trial. Id. (emphasis added).
11

55a

IV. Conclusion
When a member of our Armed Forces makes a
prima facie showing of a violation of his constitutional
right to equal protection under the Fifth Amendment
based on the intentional and impermissible exclusion
of African Americans from a court-martial panel
hand-selected by a convening authority, a remand for
an evidentiary hearing is mandated. Indeed, as we
recently and unanimously stated, “[I]t is incumbent
upon this Court to scrutinize carefully any deviations
from the protections designed to provide [the] accused
servicemember with a properly constituted panel. . . .
[E]ven reasonable doubt concerning the use of
impermissible selection criteria for members cannot be
tolerated.” Riesbeck, 77 M.J. at 163 (emphasis added)
(internal quotation marks omitted) (citations
omitted).
And yet, despite the clear-cut mandate of
Riesbeck and despite the compelling and highly
disturbing facts in the instant case, the majority has
chosen to ignore this precedent, our attendant
responsibilities, and the fundamental principles
underlying a number of relevant Supreme Court cases
by denying Appellant a simple DuBay hearing so that
he may seek to vindicate his legal and constitutional
rights. This decision by the majority is wrong—
fundamentally and egregiously—and has grave
implications for all future courts-martial involving
African American servicemembers. Therefore, I
respectfully dissent.

56a

Judge SPARKS, with whom Judge OHLSON joins,
dissenting.
I agree with Judge Ohlson that the military
judge abused her discretion and I join his dissent. The
military judge’s somewhat cursory treatment of the
issues and her desire to move on demonstrated her
frustration with the timing of defense counsel’s
request. Nonetheless, given the significance of the
issue, the military judge should have at least ordered
a brief recess to allow the parties time to investigate
whether a compromise could be reached to resolve the
issue. Indeed, there is some indication in this record
that the convening authority might have obviated the
issue all together. True, it is just as possible that an
effort seeking such a compromise might not have been
successful, but in my view an attempt would have
been worthwhile.
I especially agree with Judge Ohlson that even
if Batson v. Kentucky, 476 U.S. 79 (1986), itself does
not explicitly apply to the convening authority, “the
fundamental equal protection principles espoused in
Batson must apply broadly to the entire jury-selection
process.” United States v. Bess,
M.J., (11) (C.A.A.F.
2020) (Ohlson, J., with whom Sparks, J., joined,
dissenting). That includes subordinate authorities
tasked with providing candidates for the convening
authority’s consideration. I also agree that the state of
this record does not allow a proper resolution of Issues
I and III. I believe Appellant presented enough
evidence of inconsistencies in and questions about the
member selection process that this Court should order
a post-trial hearing in accordance with United States

57a

v. DuBay, 17 C.M.A. 147, 37 C.M.R. 411 (1967), to
gather further information.
As articulated in United States v. Campbell, the
bar for ordering further collection of evidence through
a DuBay hearing is not high:
A [DuBay] hearing need not be ordered
if an appellate court can conclude that
the motion and the files and records of
the case…conclusively show that [an
appellant] is entitled to no relief …. [A]
hearing is unnecessary when the posttrial claim (1) is inadequate on its face,
or (2) although facially adequate is
conclusively refuted as to the alleged
facts by the files and records of the
case, i.e., they state conclusions instead
of facts, contradict the record, or are
inherently incredible. 57 M.J. 134, 138
(C.A.A.F. 2002) (alterations in original)
(internal quotation marks omitted)
(quoting United States v. Ginn, 47 M.J.
236, 244 (C.A.A.F. 1997)).
Here, Appellant introduced enough uncertainty
about racial disparities in the member selection
process in his and other cases that his claim was
neither inherently incredible nor conclusively refuted.
As the record currently stands, we do not know if or
why all-white panels may have been assigned to cases
involving African American defendants accused of
sexual offenses. The letter and signed affidavit from
Commander Czaplak, the Executive Officer of the

58a

Defense Service Office Southeast, raises questions
about a possible pattern of improper selection that
this Court should investigate further, especially given
the Supreme Court’s recent reliance on “historical
evidence” to identify patterns in jury selection in
Flowers v. Mississippi. 139 S. Ct 2228, 2245 (2019).1
Therefore, I believe a DuBay hearing is merited.
This Court has acknowledged that the military
justice system’s member selection process, though not
bound by the strictures of the Sixth Amendment jury
trial requirements, merits vigilance and careful
scrutiny to ensure that protections afforded a military
accused are not violated. United States v. Riesbeck, 77
M.J. 154, 162─63 (C.A.A.F. 2018). We have also
recognized that the convening authority has
“significant discretion” to select panel members as he
or she sees fit consistent with Article 25, Uniform
Code of Military Justice (UCMJ), 10 U.S.C. § 825. Id.
at 163. Therefore, it is vitally important that our
military justice system take seriously any claim that
the member selection process in a particular courtmartial may have improperly disadvantaged the
accused in any way.

In Flowers, the Supreme Court reiterated a defendant’s right
to cast a wide net in gathering relevant historical evidence
pertaining to the government’s discriminatory jury selection
process (in the case of Flowers, a pattern of preemptive strikes of
black jurors in direct violation of Batson, 476 U.S. 79. 139 S. Ct.
at 2245. To paraphrase that opinion, we cannot take the history
out of the case. Id. at 2246.
1

59a

In my view, a remand for a DuBay hearing
would be in the convening authority’s interest. From
a good order and discipline standpoint, the convening
authority, like any commander, would want to be
informed and to take measures to tamp down any
perception, even an erroneous one, that racial animus
might have found its way into the court-martial
process. Commanders, unlike judges and lawyers, are
uniquely positioned to understand how easily
perception can transform into fact in the minds of
some members of the command.
The current record leaves a number of
unanswered questions surrounding the concerns
raised by Appellant. The prudent step at this point in
the proceedings would be for the Court to authorize a
DuBay hearing to shed further light on the panel
selection process including the actual racial
composition of Appellant’s panel, the information
available to the convening authority and how he or
any subordinate commanders might have gone about
selecting prospective members for this court-martial,
and relevant racial statistics of the member pool. We
might all agree that trial defense counsel could have
done better in presenting and following up on his
claim.
However,
defense
counsel’s
actions
notwithstanding, given the serious nature of the
issues—and that they potentially impact other
African American accuseds under this convening
authority—it is this Court’s responsibility to gather a
complete enough record that we may fully assess
whether any impropriety has occurred. Importantly,
such an inquiry does not, in and of itself, suggest
anything improper.

60a

For these reasons, I respectfully dissent.

61a

UNITED STATES OF AMERICA
Appellee
v.
PEDRO M. BESS,
Hospital Corpsman Second Class (E-5), U.S. Navy
Appellant
United States Navy-Marine Corps
Court of Criminal Appeals
October 4, 2018, Decided
NMCCA 201300311
Reporter
2018 CCA LEXIS 476
Notice: THIS OPINION DOES NOT SERVE AS
BINDING PRECEDENT, BUT MAY BE CITED AS
PERSUASIVE AUTHORITY UNDER NMCCA RULE
OF PRACTICE AND PROCEDURE 18.2.
Prior History: Appeal from the United States NavyMarine Corps Trial Judiciary. Military Judge:
Commander Heather D. Partridge, JAGC, USN.
For Appellant: Lieutenant Jacob E. Meusch, JAGC,
USN.
For Appellee: Captain Brian L. Farrell, U.S.
Marine Corps; Captain Sean M. Monks, U.S. Marine
Corps.

62a

Judges: Before WOODARD, FULTON, and JONES,
Appellate Military Judges.
OPINION OF THE COURT
JONES, Senior Judge:
This case is before us for a second time. On 8
March 2013, the appellant was convicted of two
specifications of attempting to commit an indecent act
and four specifications of committing indecent acts, in
violation of Articles 80 and 120, (UCMJ), 10 U.S.C. §§
880 and 920 (2007).1 On 28 October 2014, we affirmed
the findings and sentence.2 On 6 January 2016, the
Court of Appeals for the Armed Forces (CAAF) held
that the military judge erred by denying the appellant
an opportunity to impeach evidence requested by the
members during deliberations. The CAAF set aside
the findings and sentence and remanded the case with
authorization for a rehearing. United States v. Bess,
75 M.J. 70 (C.A.A.F. 2016). The results of that
rehearing are before us now.
On remand, a general court-martial consisting
of members with enlisted representation convicted the
appellant, contrary to his pleas, of two specifications
of indecent acts in violation of Article 120, UCMJ.3
United States v. Bess, No. 201300311, 2014 CCA LEXIS 803 (NM. Ct. Crim. App. 28 Oct 2014) (unpub. op.).
2 Id.
3 The appellant was acquitted of two other specifications
involving similar crimes on separate alleged victims: one
specification of Article 80, UCMJ, 10 U.S.C. § 880 (2007), and one
specification of Article 120, UCMJ, 10 U.S.C. § 920 (2007).
1

63a

The convening authority (CA) approved the adjudged
sentence of confinement for one year, reduction to pay
grade E-3, and a reprimand.
The appellant raises ten assignments of error
(AOEs), which we have reordered: (1) the appellant’s
convictions for indecent acts are legally and factually
insufficient; (2) the government violated his due
process rights in failing to notify him that he was
being held on active duty beyond the end of his active
duty service obligation; (3) the military judge erred by
denying his request for the production of a witness; (4)
the military judge abused her discretion by denying
production of a statistical breakdown of the racial
make-up of the population within the CA’s pool of
potential members; (5) the military judge violated the
Equal Protection Clause of the Constitution by failing
to require a race-neutral reason for the CA’s exclusion
of black members from the appellant’s venire; (6) the
CA engaged in unlawful command influence (UCI) by
excluding black members from the venire; (7) the
military judge abused her discretion by denying the
appellant’s motion for a mistrial; (8) the government
illegally punished the appellant by taking his
uniforms after his first trial; (9) the panel violated his
due process rights because it consisted of less than six
members, and their verdict did not require unanimity;
and (10) the guilty verdict should be set aside and
dismissed under the cumulative error doctrine.

64a

We have considered AOEs nine and ten, and
find them to be without merit.4 Having carefully
considered the remaining AOEs, the record of trial,
and the parties’ submissions, we conclude the findings
and sentence are correct in law and fact and that no
error
materially
prejudiced
the
appellant’s
substantial rights. Arts. 59(a) and 66(c), UCMJ, 10
U.S.C. §§ 859(a) and 866(c).
I. BACKGROUND

The appellant is an African-American x-ray
technician who was assigned to the Naval Air Station
Oceana Branch Health Clinic (Oceana Clinic),
Virginia Beach, Virginia. While in the performance of
his duties at the clinic in February 2011, the appellant
told two female patients, PG, the dependent daughter
United States v. Clifton, 35 M.J. 79 (C.M.A. 1992). It is settled
law that a fivemember court-martial panel does not violate due
process. See United States v. Wolff, 5 M.J. 923, 925 (N.M.C.M.R.
1978) (holding there was no due process deprivation for a fivemember panel in the military, in spite of the Supreme Court’s
ruling in Ballew v. Georgia, 435 U.S. 223 (1978) which required
juries of at least six members in Article III courts); Article 16,
UCMJ; 10 U.S.C. § 816. It is also settled law that the panel’s vote
need not be unanimous. See Article 52(a)(2), UCMJ; 10 U.S.C. §
852(a)(2). See also United States v. Matias, 25 M.J. 356, 361,
(C.M.A. 1987).
4

When an accumulation of errors deprives an appellant of a fair
trial, Article 59(a), UCMJ, compels us to reverse it. United States
v. Banks, 36 M.J. 150, 171 (C.M.A. 1992). Here, given our
findings on the other AOEs, the cumulative error doctrine is
inapposite.

65a

of an active duty field grade officer, and Aviation
Support Equipment Technician (Mechanical) Petty
Officer 2nd Class (ASM2) AL, that they had to be
naked while he took their x-rays. Both women
complied by removing their clothing, and the
appellant purportedly took x-rays of them.5 At trial,
Dr. B, a radiologist, testified that patients are never
required to be naked for any type of x-ray.
A. PG

On 24 February 2011, PG’s doctor ordered xrays from the Oceana Clinic because PG was having
back and neck pain after a car accident. When PG
went to the x-ray room, she met two people, an “older
white gentleman” and the appellant.6 The older
gentleman and the appellant conducted chest x-rays
of PG while she was wearing jeans and t-shirt, but
with her bra removed.7

We say “purportedly” because no x-rays of the women nude
were found during the investigation. At trial, a radiology
technician testified that it is possible for a technician to cause
the x-ray machine to make sounds without actually capturing an
image. Also, x-rays not sent to doctors were automatically and
systematically purged from the Oceana Clinic’s computers.
6 Record at 504-05.
7 At trial, PG was cross-examined on her October 2011 statement
to NCIS, where she stated that the older gentleman was present
during the original x-rays and that she was topless at that time.
Id. at 526-27. On re-direct examination, PG reiterated that—in
spite of what the NCIS agent had written—she was naked only
during the second set of x-rays when she and the appellant were
alone in the room. Id. at 532-33.
5

66a

After these initial x-rays, the older gentleman
left. The appellant then told PG that he needed to take
more x-rays because she was in a head-on collision
and he instructed her to get completely undressed.
The appellant left the room. PG did as she was
directed and lay on the table completely naked. The
appellant returned and appeared to take x-rays of PG
in several positions while she was completely naked.
These positions included having PG lay on her
stomach and stick her buttocks in the air and get into
a “frog-like position.”8 The positions completely
exposed PG’s naked vaginal area to the appellant.
During this time, PG was never given a gown or other
clothing to wear, and had only a small cloth that she
tried unsuccessfully to use to cover her breasts and
genitalia. Finally, PG asked if they had to continue
taking more x-rays, and the appellant said he would
“check with [her] doctor.”9 The appellant left the room
and returned a few moments later to tell PG she could
leave.
B. ASM2 AL

ASM2 AL’s flight surgeon ordered x-rays for
her back. On the morning of 25 February 2011, ASM2
AL went to the x-ray department at the Oceana Clinic
and a female technician took x-rays of her back while
she was lying down. ASM2 AL remained fully clothed
during this procedure. Later that evening, she was
instructed to return to the Clinic’s x-ray department
8
9

Id. at 515-16.
Id.

67a

because her doctor needed x-rays of her back “taken
standing up.”10
When ASM2 AL went back to the x-ray room
with the appellant, he instructed her to remove her
clothing and wear nothing except a gown. After she
had changed, the appellant came back into the room
and told her that “the doctor had requested that [she]
wear nothing and that [she] be completely nude to
take the x-rays.”11 The appellant left the room again
and she took off the gown as directed, leaving her
completely naked. When the appellant returned, he
had ASM2 AL sign a consent form which appeared to
be “a statement from [her doctor] saying that [she]
had to be nude for the x-rays so that they would show
up more clear [sic].”12 The appellant then took a series
of x-rays while she was standing and completely
naked. Throughout the entire process, ASM2 AL’s
breasts, buttocks, and vaginal area were exposed, and
the appellant encouraged her not to cover her pelvic
area with her hands.
Additional facts necessary to resolution of the
AOEs are included below.

Id. at 341-42; Prosecution Exhibit (PE) 20.
Record at 343.
12 Id. at 347.
10
11

68a

II. DISCUSSION

A. Legal and factual sufficiency
The appellant argues that the evidence is
legally and factually insufficient to find him guilty of
both specifications of indecent conduct. We disagree.
We review questions of legal and factual
sufficiency de novo. Art 66(c), UCMJ; United States v.
Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). The
test for factual sufficiency is whether “after weighing
the evidence in the record of trial and making
allowances for not having personally observed the
witnesses, [this court is] convinced of appellant’s guilt
beyond a reasonable doubt.” United States v. Rosario,
76 M.J. 114, 117 (C.A.A.F. 2017) (citation, internal
quotation marks, and emphasis omitted). In
conducting this unique appellate function, we take “a
fresh, impartial look at the evidence,” applying
“neither a presumption of innocence nor a
presumption of guilt” to “make [our] own independent
determination as to whether the evidence constitutes
proof of each required element beyond a reasonable
doubt.” Washington, 57 at 399. Proof beyond a
reasonable doubt does not mean, however, that the
evidence must be free from conflict. United States v.
Goode, 54 M.J. 836, 841 (N-M. Ct. Crim. App. 2001).
“The test for legal sufficiency is whether, after viewing
the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a
reasonable doubt.” United States v. Robinson, 77 M.J.

69a

294, 297-98, (C.A.A.F. 2018) (quoting Rosario, 76 M.J.
at 117).
The appellant disputes only his identification
as the perpetrator. He avers that “the government
failed to prove beyond a reasonable doubt that [he]
was the performing [x-ray] technician.”13 Therefore,
we will focus on the government’s burden to prove
beyond a reasonable doubt that it was the appellant
that committed the indecent acts of unlawfully
viewing the nude bodies of PG and ASM2 AL during
their x-ray examinations.14
Id. at 504-14; Appellant’s Brief of 1 Dec 2017 at 59.
The elements for the indecent acts alleged in Specification 1 of
Charge II are:
(1) The appellant engaged in wrongful conduct by wrongfully
and without necessity having PG remove all of her clothing
in order to receive an x-ray examination and having her lay
on an examination table with her legs splayed, knees bent,
and feet together while she was nude and on her stomach
with her back arched and hips propped up while she was
nude and thereby observing her genitalia, buttocks, and
nipples; and
(2) The conduct was indecent.
The elements for the indecent acts alleged in Specification 2 of
Charge II are:
(1) The appellant engaged in wrongful conduct by wrongfully
and without necessity having ASM2 AL remove all of her
clothing in order to receive an x-ray examination and
thereby observing her nude body, to include the genitalia,
buttocks, and nipples; and
(2) The conduct was indecent.
10 U.S.C. § 920(k) (2007); MANUAL FOR COURTS-MARTIAL,
UNITED STATES (MCM) (2007 ed.), Part IV, ¶45b.(11); Record
at 803-04; Charge Sheet.
13
14

70a

Of the five x-ray technicians at the Oceana
Clinic, only two would appear to be black. One was the
appellant; the other was a native of Haiti, and spoke
with a “really thick” accent.15 In addition to his accent,
the other technician was readily distinguishable from
the appellant—he was tall and thin, and had a darkcomplexion. The appellant was comparatively stockier
and had a lighter complexion. The other technician
was a third class petty officer. The victims testified
that their technician was a second class petty officer,
like the appellant.
Both victims had ample opportunity to both
observe the appellant’s physical description and
clearly hear his voice while they were alone in the xray room with him. Both spent several minutes
talking to the appellant while he pretended to provide
them with medical care. Neither victim testified that
the x-ray technician that made them remove all of
their clothes had an accent. At trial, PG and ASM2 AL
positively identified the appellant as the x-ray
technician who took their x-rays while they were
nude.
The government submitted various records to
corroborate that it was the appellant who took x-rays
of PG and ASM2 AL while they were nude. The
appellant avers that these records were unreliable.
First, the government submitted documents from a
Record at 409. We use the term “black” in the opinion because
we are not certain the Haitian x-ray technician identifies as
African-American.
15

71a

medical care records system called the Composite
Healthcare System (CHCS), which is used to track
medical services for patients, including x-rays. Per the
CHCS, PG received her x-rays between 1709 and 1751
on 24 February 2011 from the appellant.16 Also per
the CHCS, ASM2 AL received her x-rays between
1645 and 1710, and then again at 1801 on 25 February
2011 from the appellant.17 The government also
presented the appellant’s unit’s muster reports for the
two days in question. They revealed that only one xray technician was on duty for both of these late shifts
at the Oceana Clinic—the appellant.
The corroborating evidence from the CHCS
presented by the government, however, is not
infallible. Any x-ray technician had the ability to
manipulate the CHCS report by simply putting a
different technician’s name into the system before
taking an x-ray. Also, it was not uncommon for a
technician to take x-rays of a patient while a different
technician was logged in to the CHCS system. In this
case, however, both PG’s and ASM2 AL’s x-rays were
taken after normal working hours when the appellant
was the only x-ray technician on duty, and therefore
not sharing the x-ray machine with other technicians.
We also accept that the unit’s muster reports were not
fail-safe evidence; after a muster report was taken,
technicians still rotated between the Oceana Clinic
and another nearby clinic based on work assignments
and personal necessities. But the CHCS records, in
conjunction with the appellant’s unit muster reports,
16
17

PE 12 at 4; Record at 439.
PE 14 at 2; Record at 430-31.

72a

corroborate the victims’ unwavering identification of
the appellant as the x-ray technician who took their xrays when they were nude.
We are convinced that the appellant was the xray technician who took PG’s and ASM2 AL’s x-rays
while they were nude. The evidence of his guilt is
overwhelming. The victims’ allegations and their incourt identifications are supported by other
testimonial and documentary evidence establishing
that the appellant was their x-ray technician.18 We do
not believe the victims confused the appellant for any
other x-ray technician working at the Oceana Clinic.
Each victim’s testimony at trial supported the charges
resulting in the convictions. We find unpersuasive the
appellant’s argument that his identification was
merely the result of government suggestibility and
that the victims confused him with the other black
technician. After carefully reviewing the record of
trial and considering the evidence in the light most
favorable to the prosecution, we are convinced that a
reasonable fact-finder could have found all the
essential elements beyond a reasonable doubt.
Furthermore, after weighing all the evidence in the
record of trial and having made allowances for not
having personally observed the witnesses, we are
convinced beyond a reasonable doubt of the
appellant’s guilt.

We also reject the appellant’s contention that because his
personal marker—a skull and crossbones with his initials—was
not visible on the victims’ x-rays he was not the technician who
conducted the x-rays. We are not surprised that the appellant
would seek to avoid identifying himself while committing crimes.
18

73a

B. Failure to notify the appellant that he was on
legal hold
The appellant alleges his due process rights
were violated because the government failed to
provide him notice that it was retaining him on active
duty past his End of Active Obligated Service (EAOS)
date.
After the appellant served his confinement for
his first court-martial, his command failed to
administratively change the expiration of his EAOS
from 20 October 2016 to 20 April 2017. This change
should have been made because days spent in
confinement do not count towards fulfilling a
servicemember’s enlistment.19 On 11 April 2017, the
appellant’s command realized the error and issued
him a counseling entry documenting that he had been
on legal hold from 20 October 2016 to 11 April 2017.20
The appellant argues this lack of notice of his legal
hold violated his right to due process, and that this
violation caused the court-martial to lose jurisdiction
over him. We disagree.
As the appellant raises this due process concern
for the first time on appeal, we apply the plain error
standard. See United States v. Lewis, 69 M.J. 379, 383
(C.A.A.F. 2011) (applying the plain error standard to
a due process claim first raised on appeal). Under the
plain error standard, the appellant must show that:
“(1) an error was committed; (2) the error was plain,
19
20

Appellant’s Motion to Attach of 20 Nov 2017, App. 2 at 2.
Id. at 2-3.

74a

or clear, or obvious; and (3) the error resulted in
material prejudice to substantial rights.” Id. (quoting
United States v. Maynard, 66 M.J. 242, 244 (C.A.A.F.
2008)).
Here, the appellant fails to show that the
government’s failure to provide this notification
plainly or obviously violated his right to due process.
The appellant cites no authority—and we find none—
supporting the proposition that the government’s
failure to notify him that he was being retained on
active duty amounted to a violation of the Fifth
Amendment guarantee of due process. Even if it did,
the record does not reveal that the appellant was
actually prejudiced. The record contains no indication
that the appellant did not know that he remained on
active duty. He was not discharged after his first
court-martial. The appellant’s brief makes plain that
the appellant wore a uniform and returned to active
service after having been confined.
The appellant erroneously links this perceived
failure of due process with jurisdiction. The appellant
incorrectly concludes that “as a result of the
government’s failure to provide such notice,
government officials were able to retain personal
jurisdiction” over the appellant.21 But notification is
not the source of, and does not affect, jurisdiction over
a service member. Rather, the appellant was subject
to the court-martial’s jurisdiction because he had
never been discharged from active duty. And the
record does not contain any reason to find that the
21

Appellant’s Brief at 35.

75a

appellant would have been discharged had he brought
the government’s error to its attention. Doubtless the
government would have simply notified him that he
was being retained for a second trial.
We find that the government did not violate the
appellant’s Fifth Amendment right to due process,
and that no administrative error severed courtmartial jurisdiction over the appellant.
C. Military judge’s denial of motion to produce a
witness
The appellant avers that the military judge
abused her discretion in denying the appellant’s pretrial motion to compel production of Investigator S as
a witness at trial. We disagree.
Investigator S was an investigator for the
Naval Criminal Investigative Service assigned to the
appellant’s
case.
During
his
investigation,
Investigator S used the CHCS to identify and then
cold-call numerous females who might have been
potential victims of the appellant. In one of these calls,
a female patient—who was never a victim in the
appellant’s case—indicated that her x-ray technician
might have been Caucasian. This was significant
because the CHCS indicated the appellant had been
signed in as her x-ray technician during the taking of
her x-rays. The agent noted that the patient stated
her technician was “Male (Caucasian)–Not too sure.”22
22

Appellate Exhibit (AE) VI at 6.

76a

The defense argued that Investigator S could testify
about this phone call with the unknown female. They
argued this would show the CHCS was too unreliable
to identify which x-ray technician took certain x-rays.
The military judge denied the motion, ruling
that the testimony of Investigator S was not relevant
or necessary. She stated that she could not “see how it
is any more likely that this is a flaw in the CHCS than
it is [the female patient’s] memory of describing the xray technician.”23 The military judge found that
Investigator S was cumulative with the defense’s own
expert consultant on the CHCS. She also found that
the defense could effectively cross-examine other
government witnesses with direct knowledge of the
CHCS—witnesses who would readily admit that the
CHCS showed only which x-ray technician was signed
in at any given time and not which technician took
certain x-rays.
We review witness production rulings for an
abuse of discretion. United States v. McElhaney, 54
M.J. 120, 126 (C.A.A.F. 2000). “The military judge’s
decision should only be reversed if, ‘on the whole,’
denial of the defense witness was improper.” United
States v. Ruth, 46 M.J. 1, 3 (C.A.A.F. 1997) (citations
omitted) (alteration in original). We will not reverse a
military judge’s ruling on a witness production motion
“unless [we] have a definite and firm conviction that
the [military judge] committed a clear error of
judgment in the conclusion [she] reached upon a

23

Record at 37.

77a

weighing of the relevant factors.” Id. (citations and
internal quotations omitted).
The test for whether a witness should be
produced is whether that witness is relevant and
necessary. R.C.M. 703(b)(1). To determine if the
testimony would be relevant, the trial judge must
consider whether the testimony would have any
tendency to make a fact of consequence more or less
probable, and that its probative value is not
outweighed by the danger of unfair prejudice,
confusing the issues, misleading the members, undue
delay, wasting time, or needlessly presenting
cumulative evidence. MILITARY RULE OF
EVIDENCE (MIL. R. EVID.) 401 and 403, MANUAL
FOR COURTS-MARTIAL (MCM), UNITED STATES
(2016 ed.).
To determine whether a witness is necessary,
we consider such factors as the issues involved in the
case and the importance of the requested witness as
to those issues; whether the witness is desired on the
merits or the sentencing portion of the trial; whether
the witness’s testimony would be merely cumulative;
and the availability of alternatives to the personal
appearance of the witness, such as deposition,
interrogatories or previous testimony. Ruth, 46 M.J.
at 4 (quoting United States v. Tangpuz, 5 M.J. 426,
429 (C.M.A. 1978)).
We agree with the military judge’s finding that
Investigator S’s testimony would have had very
minimal, if any, relevance. The unidentified female
patient’s memory was inconclusive, and Investigator

78a

S could only speculate about what her testimony
actually meant regarding the reliability of the CHCS.
We concur with the military judge’s finding that a
faulty memory of one patient would shed little, if any,
light on the trustworthiness of the CHCS.
We also conclude that the military judge did not
err in finding the evidence was not necessary.
Although she did not spell out all of the Ruth factors
for determining when a witness is necessary, the
military judge did address two of the factors in her
ruling: She addressed the first Ruth factor— the
issues involved in the case and the importance of the
requested witness as to those issues—when she found
Investigator S’s testimony unimportant regarding the
reliability of the CHCS. She also addressed the third
Ruth factor—whether the witness’s testimony would
be merely cumulative—in finding that there were
already several witnesses who were going to testify
about the reliability of the CHCS. In fact, the defense
conceded that the government was going to call at
least three x-ray technicians who would testify that
the CHCS did not always portray who a patient’s
actual x-ray technician was because the technicians
could “select any name from the drop-down menu”
when they took the x-rays.24
As the military judge anticipated, the issue of
the CHCS’s reliability was addressed by several
witnesses at trial. No fewer than three government
witnesses and three defense witnesses—including the
24

Id. at 22.

79a

appellant himself—testified regarding the reliability
of using the CHCS to positively identify which x-ray
technician took a certain x-ray.25 Production of
Investigator S’s testimony was not necessary.
Accordingly, we conclude that the military judge did
not abuse her discretion in denying the production of
Investigator S.
D. Denial of discovery
The appellant asserts that the military judge
abused her discretion in denying production of a
statistical breakdown of the racial make-up of the
population of the CA’s command.
1. Background
After general voir dire, but before the first member
was brought in for individual voir dire, the trial
defense counsel (TDC) stated the defense team had
noticed that the “the panel [was] all white,” their
client was African-American, and they “would prefer
African-American representation on the panel.”26 The
TDC indicated they were making “a combination of an
Article 25 [UCMJ,] challenge . . . almost like a
preventative Batson challenge. . . . It is almost as
though a command is preventing that race from
representation on the panel so that they can avoid a
Batson challenge.”27

Id. at 402-79; 540-647; 675-97; 737-45; 746-78.
Id. at 140.
27 Id. at 141.
25
26

80a

The military judge responded:
[A]bsent any evidence of anything
inappropriate being done by the
convening authority in assembling the
panel, you know, all I can state for the
record is that, if it wasn’t for frankly
some of—the reading that I did about
the prior proceeding, I would not
personally have known the race of your
client, and I certainly would not know
necessarily by observing him, nor do I
feel confident that I know the race of
several of the members of the panel. I
suspect that we have some minority
participation on the panel . . . .28
In response, the TDC stated, “I may have
misspoke [sic] and said that [the panel] were all
Caucasian, and that might not be true. I am fairly
confident that there is no African-American on the
panel of 10, which statistically speaking, you would
think that there would be at least one.”29
The TDC then requested to expand their initial
discovery request—which had been for the documents
accompanying the selection of members under Article
25, UCMJ—to include “a statistical breakdown of the
population as far as race with respect to the convening
authority’s command.”30 The military judge denied
Id.
Id. at 143.
30 Id. at 144.
28
29

81a

the discovery request. First, she found that the
defense had been in possession of the member’s
questionnaires for a week before trial and should have
raised the issue earlier. Second, she found that a
statistical breakdown of the CA’s command based on
race was not feasible, and was irrelevant absent any
evidence of impropriety.
Finally, the TDC argued that this was the
second members panel in a row in which he was
representing an African-American client and the
members appeared to be “an all-white panel.”31 The
military judge noted the TDC’s objection for the record
and then directed that the first member be called in
for individual voir dire.
2. Denial of request for discovery
We review a military judge’s ruling on a request
for production of evidence for an abuse of discretion.
United States v. Rodriguez, 60 M.J. 239, 246 (C.A.A.F.
2004). The military judge abuses her discretion when
her findings of fact are clearly erroneous or her ruling
is influenced by an erroneous view of the law. United
States v. Freeman, 65 M.J. 451, 453 (C.A.A.F. 2008).
Here, although we find the military judge erred in
declaring the TDC’s objection to the panel untimely,
she did not abuse her discretion by denying the
discovery request.
With regard to timeliness, the military judge
misapprehended the content of the members’
31

Id. at 146.

82a

questionnaires. Only one of the ten member’s
questionnaires had a question asking the member to
identify her race.32 The appellant would have had no
way of knowing what race the members appeared to
be until they actually arrived at the trial. The military
judge’s finding, therefore, that the defense could have
used the questionnaires to bring the motion sooner
was incorrect. The defense brought the issue to the
military judge’s attention when it came to their
attention. Our superior court has ruled that an
objection that the CA selected members for reasons
other than those listed in Article 25, UCMJ—such as
excluding members based on race—is always timely
and never waived. United States v. Riesbeck, 77 M.J.
154, 160 (C.A.A.F. 2018).33
Although the military judge erred with regard
to the timeliness of the motion, we find that she did
not abuse her discretion in denying the motion. First,
the defense request for “a statistical breakdown of the
population as far as race with respect to the convening
authority’s command” is not relevant. The record
reveals that the CA was able to detail members from
outside Navy Region Mid-Atlantic, and even from
commands not subordinate to his command. The
record also reveals that no members detailed to the
appellant’s court-martial listed Navy Region MidAE XXVVII at 76. The member with the racial identifier
question self-identified as Caucasian.
33 The CAAF equated this attack on member selection to UCI.
“We also noted that improper member selection can constitute
unlawful command influence, which cannot be waived.” Riesbeck,
77 M.J. at 176. See Section F, infra.
32

83a

Atlantic—the CA’s command—as their current
command. Knowing the racial makeup of the CA’s
command, therefore, would not have been useful to
the court-martial.
We are unable to re-construe the request to be
more relevant. The record does not reveal what
additional commands made up the CA’s pool of
available members. We cannot know—and the
appellant has not demonstrated—what a request for
more relevant information might have looked like.
What commands’ demographic information should be
used? Over what period of time? In terms of eligibility
under Article 25, UCMJ, what would be the
appropriate groups of people to consider? The
appellant’s request at trial was for irrelevant
information, and the military judge did not abuse her
discretion by denying it.
On appeal, the appellant asks us to re-tool the
request and order a DuBay hearing to “require the
government to produce the racial and statistical
makeup of the pool of members for the CA and
‘articulate[ ] a neutral explanation relative to this
particular case, giving a clear and reasonably specific
explanation of legitimate reasons’ for excluding black
members from HM2 Bess’ venire.”34 We find, however,
that the record is sufficient for us to determine that
the military judge did not abuse her discretion by
denying the request as it was made at trial. The
Appellant’s Brief at 47 (quoting United States v. Moore, 28 M.J.
366, 369 (C.M.A. 1989) (alteration in original).
34

84a

appellant presented no evidence that the CA used
anything other than the Article 25, UCMJ, criteria for
selecting members, or that he even knew the race of
all but one of the members he selected. The appellant’s
mid-voir dire request was for irrelevant information,
and the military judge rightly denied it at the time.
We decline the appellant’s invitation to litigate new
requests post-trial. This assignment of error is
without merit.
E. No African-Americans on the panel
The appellant urges us to extend Batson v.
Kentucky, 476 U.S. 79 (1986) and hold that the
military judge erred by not requiring the CA to give a
race-neutral reason for not having any AfricanAmericans on the panel. We decline to do so.
Batson, as applied to the military in United
States v. Santiago-Davila, 26 M.J. 380 (C.M.A. 1988),
allows an accused to require a prosecutor to give a
race-neutral reason for exercising a peremptory
challenge on a minority member. The appellant
argues that the CA circumvented Batson by not
including any African-Americans on the panel. The
appellant argues that the absence of AfricanAmericans on the panel is prima facie evidence that
the CA systematically excluded them, and that, under
Batson, the burden shifted to the government—
presumably the CA—to give a race-neutral reason for
not including African-Americans.
There is no precedent for this application of
Batson in courts-martial, and we decline to create it

85a

here. Additionally, we are bound by precedent that
establishes that, absent further evidence of some
intentional exclusion of a particular group by the CA,
the absence of African-Americans on the panel does
not constitute prima facie evidence of systematic
exclusion. See United States v. Loving, 41 M.J. 213,
285 (C.A.A.F. 1994). This assignment of error is
without merit.
F. Unlawful Command Influence
The appellant claims that the commander
exerted UCI by excluding African-American members
from the panel. We disagree.
To prove UCI on appeal the appellant must
show (1) facts, that if true, constitute UCI, (2) the
prior proceedings were unfair, and (3) the UCI “was
the cause of the unfairness.” United States v. Biagase,
50 M.J. 143, 150 (C.A.A.F. 1999) (citing United States
v. Stombaugh, 40 M.J. 208, 213 (C.M.A. 1994)). The
appellant must show facts that, if true, allege the
members were selected on an impermissible basis to
affect the result of the trial. Riesbeck, 77 M.J. at 159.
Proximate causation between the alleged UCI and
court martial outcome must be proven as well.
Biagase, 50 M.J. at 150 (citing United States v.
Reynolds, 40 M.J. 198, 202 (C.M.A. 1994)).
Allegations of UCI are reviewed de novo by this
court. United States v. Sayler, 72 M.J. 415, 423
(C.A.A.F. 2013) (citing United States v. Harvey, 64
M.J. 13, 19 (C.A.A.F. 2006)). The appellant alleges
that the CA used race to select an all-white panel in

86a

order to engage in court stacking, a form of UCI.
Riesbeck, 77 M.J. at 165. “The initial burden of
showing potential [UCI] is low, but is more than mere
allegation or speculation.” Id. (citing United States v.
Stoneman, 57 M.J. 35, 41 (C.A.A.F. 1999). If the
defense presents some evidence of UCI, the burden
shifts to the government to show either that there was
no UCI, or that any UCI did not taint the proceedings.
Stoneman, 57 M.J. at 41.
We find that the appellant has not met his
initial burden. With the exception of the one member’s
questionnaire that had a racial or ethnicity
identifying question and response, there is no
evidence that the CA knew the race of any of the other
nine members detailed to the court-martial. Again, we
observe that none of the members listed Navy Region
Mid-Atlantic as their parent command on their
member questionnaires. As all of the members denied
personally knowing the CA during voir dire, we have
no reason to suspect that the CA personally knew
them and would therefore have known their race. This
court cannot even be sure of the members’ race as the
record is absent of any questions posed during voir
dire to the members by either counsel or the military
judge regarding the members’ racial or ethnic
background.
We note that the appellant’s counsel was in
possession of the matters the CA used to select
members, and that he failed to introduce these
matters as evidence. Also, the appellant did not call
the CA as a witness to ask him about how he selected
members.

87a

We have considered the affidavit provided by
trial defense counsel’s executive officer. In that
affidavit, the executive officer notes that he
represented an African-American officer at courtmartial seven months after the appellant’s trial.
Before that officer’s trial, the executive officer sent a
letter to the CA asking for minority representation at
the officer’s trial. The CA complied with that request.
In the affidavit the executive officer goes on to state
that he is aware of three other cases in which AfricanAmericans were tried by all-white panels convened by
the CA. We find that this anecdotal observation by the
executive officer of a defense command, which cuts
both in favor of and against the appellant’s allegation
of CA bias, does not shift the burden to the
government to disprove UCI.
In addition to considering the case for actual
UCI, we have considered apparent UCI, asking
whether “an objective, disinterested observer, fully
informed of all the facts and circumstances, would
harbor a significant doubt about the fairness of the
proceeding.” Sayler, 72 M.J. at 423 (citing Lewis, 63
M.J. at 415). We find that there are insufficient facts
on the record that would lead a reasonable person to
harbor significant doubt about the fairness of the
proceeding. In possession of the CA’s members’
selection material, the appellant presented no
evidence that the CA selected members by using any
criteria other than those found in Article 25, UCMJ.
This assignment of error is without merit.

88a

G. Failure to grant a mistrial
The appellant avers that the military judge
abused her discretion in failing to grant a mistrial. We
disagree.
Before the beginning of the trial, the TDC
reminded the military judge that the parties had
agreed “to reference any testimony from the first trial
. . . as ‘prior testimony at a prior hearing,’ rather than
. . . that it was an actual contested trial.” The military
judge agreed:
As you stated, we—our goal is to
preclude any indication to the members
that there was a previous courtmartial. And, as indicated, counsel
should refer to any prior testimony as
something of the nature of, “At a prior
hearing,” or, “During prior testimony,”
something of that nature, and not refer
to a court-martial.35
During trial, the government called Dr. B, an
expert in radiology. On redirect examination, the
prosecutor asked Dr. B if he had reviewed certain xrays on the high resolution monitors at his office
before trial. Dr. B responded, “Not for this particular
trial. I did for the original trial.”36 The military judge
quickly excused the members and discussed issuing a
curative instruction with the parties. The defense
35
36

Record at 80.
Id. at 647.

89a

refused to participate in the drafting of the curative
instruction and asked for a mistrial. The military
judge denied the mistrial and provided the members
with the following curative instruction:
Members, you are to completely
disregard
Dr.
[B’s]
statement
concerning a prior proceeding. There
are many ways and reasons why a prior
proceeding that may have occurred
could’ve terminated. And you may
make no inference concerning the guilt
or innocence at [sic] the accused. You
are to determine the accused’s guilt or
innocence based solely on the evidence
presented to you in court. Is there any
member who cannot follow this
matter?37
All of the members indicated that they could
follow the instruction. The military judge gave the
appellant the overnight recess to draft a written
motion for mistrial. The defense filed the written
motion the next morning, which the military judge
denied. In her ruling, the military judge pointed out
that Dr. B mentioned only that there was a prior
trial—not a prior conviction—and that the defense
failed to provide any source of law for the proposition
that such a statement was worthy of a mistrial. The
military judge ruled that a curative instruction was
the appropriate remedy.
37

Id. at 664.

90a

[T]here were multiple and various
inferences the members could draw if
permitted
to
make
inferences
regarding the mere mention of a
previous trial. That is exactly why I
deemed a curative instruction to be the
appropriate remedial action to stop as
quickly as possible the members from
making any inferences. I do not agree
with the defense that the only
acceptable curative instruction would
require lying to the members.38
“We will not reverse a military judge’s
determination on a mistrial absent clear evidence of
an abuse of discretion.” United States v. Ashby, 68
M.J. 108, 122 (C.A.A.F. 2009) (citing United States v.
Rushatz, 31 M.J. 450, 456 (C.M.A. 1990)). A military
judge “may, as a matter of discretion, declare a
mistrial when such action is manifestly necessary in
the interest of justice because of circumstances arising
during the proceedings which cast substantial doubt
upon the fairness of the proceedings.” R.C.M. 915(a).
But “a mistrial is an unusual and disfavored remedy.
It should be applied only as a last resort to protect the
guarantee for a fair trial.” United States v. Diaz, 59
M.J. 79, 90 (C.A.A.F. 2003). “A curative instruction is
the preferred remedy, and the granting of a mistrial is
an extreme remedy which should only be done when
‘inadmissible matters so prejudicial that a curative
instruction would be inadequate are brought to the
38

Id. at 671.

91a

attention of the members.’” Id. at 92 (quoting R.C.M.
915(a), Discussion).
Here, we find the military judge did not abuse
her discretion by denying the request for a mistrial.
We do not believe the mere mention of a previous trial
by Dr. B casts substantial doubt upon the fairness of
the proceedings. See R.C.M. 915(a). The doctor’s
comment was not so prejudicial that a curative
instruction did not cure it. In fact, the curative
instruction alleviated any possible prejudice that
might have arisen. We presume “absent contrary
indications, that the panel followed the military
judge’s instructions.” United States v. Sewell, 76 M.J.
14, 19 (C.A.A.F. 2017).
H. The government taking the appellant’s
uniforms
The appellant claims he was unlawfully
punished under Article 13, UCMJ, when the
government kept his uniforms after his first
conviction was overturned and he was released from
the brig. We disagree.
Before findings, the appellant made an oral
Article 13, UCMJ, motion alleging illegal pretrial
punishment. The appellant testified that he was
required to turn in his uniforms when he entered
confinement after his first court-martial. He was then
ordered back to active duty when his convictions were
set aside. The appellant testified that he then bought
$400.00 worth of new uniforms because none of the
command’s spare uniforms fit him. The military judge

92a

denied the motion because she found no punitive
intent by the command to punish the appellant, and
“multiple legitimate[,] non-punitive government
interests” for taking uniforms from servicemembers
receiving a dishonorable discharge.39
Article
13,
UCMJ,
prohibits
pretrial
punishment: “[n]o person, while being held for trial,
may be subjected to punishment or penalty other than
arrest or confinement upon the charges pending
against him[.]” The CAAF has determined that for the
appellant to receive relief, he must show that the
government intended to punish him. “[T]he question
of whether particular conditions amount to
punishment before trial is a matter of intent, which is
determined by examining the purposes served by the
restriction or condition, and whether such purposes
are reasonably related to a legitimate governmental
objective.” Howell v. United States, 75 M.J. 386, 393
(C.A.A.F. 2016) (quoting United States v. Palmiter, 20
M.J. 90 (C.M.A. 1985)) (alteration in original)
(internal quotation marks omitted).
“The burden is on [the] appellant to establish
entitlement to additional sentence credit because of a
violation of Article 13[, UCMJ].” United States v.
Mosby, 56 M.J. 309, 310 (C.A.A.F. 2002) (citing R.C.M.
905(c)(2)). Whether an appellant is entitled to relief
for a violation of Article 13, UCMJ, is a mixed question
of law and fact. Id. (citing United States v. Smith, 53
M.J. 168, 170 (C.A.A.F. 2000) and United States v.
39

Id. at 671.

93a

McCarthy, 47 M.J. 162, 165 (C.A.A.F. 1997))
(additional citation omitted). “We will not overturn a
military judge’s findings of fact, including a finding of
no intent to punish, unless they are clearly erroneous.
We will review de novo the ultimate question whether
[this] appellant is entitled to credit for a violation of
Article 13[, UCMJ].” Id. (citing Smith, 53 M.J. at 170).
Here, the appellant presented no evidence that
the government acted with a punitive intent when it
appropriated his uniforms after his first conviction.
Accordingly, the military judge found no intent to
punish: “[T]here does not appear to be any punitive
intent in the lack of retention of [the appellant’s]
uniforms while he was in the brig, or those items being
returned to him.”
The military judge also found legitimate,
nonpunitive purposes for the government’s policy of
confiscating uniforms of servicemembers who had
received punitive discharges. Those reasons included:
(1) preventing servicemembers who had received
punitive discharges from wearing their uniforms out
in town; (2) complying with the Naval Military
Personnel Manual’s requirement for persons with
punitive discharges to surrender their uniforms;40 and
(3) compliance with 10 U.S.C. § 771a’s requirement
that when an enlisted servicemember is discharged
dishonorably his issued clothing must be retained by
the military.41

40
41

MILPERSMAN, Art. 1910-228, p.1 (CH-11, 1 Jun 2005).
Record at 1089-90.

94a

The military judge’s findings of fact are
supported by the record and are not clearly erroneous.
Her conclusions of law are correct. Accordingly, we
find that the appellant is not entitled to relief under
Article 13, UCMJ.
III. CONCLUSION

The findings and sentence as approved by the
CA are affirmed.
Chief Judge WOODARD and Senior Judge
FULTON concur.
FOR THE COURT

C e k of Cou t

